APPENDICES IN SUPPORT OF PETITION FOR A WRIT OF HABEAS CORPUS
TABLE OF CONTENTS
APPENDIX A:

Judgment Denying Authorization to file a Second
Federal Habeas Petition entered on February 21, 2020,
by the Eight Circuit Court of Appeals, in the matter
of Leonor v. Frakes, Case No. 19-3145.

APPENDIX B:

Trial Jury Instructions No. 6 and 7, in the matter of
State v. Leonor, Doc. 149 No. 834; CR 10-9042117.

APPENDIX C:

Amended Application for Permission to File a Second
Federal Habeas petition, filed on October 21, 2019, by
Petitioner Juan L. Leonor, in the Eight Circuit Court
of Appeals, in the matter of Leonor v. Frakes, Case
' No. 19-3145-;

APPENDIX D:

Successive Postconviction Motion filed by Petitioner
Juan L. Leonor, in the Douglas County District Court
on May 30, 2012, in the matter of State v. Leonor,
Doc. 149 No. 834; CR 10-9042117.

•

APPENDIX E:

Order entered on April 6, 2021, by the Douglas County
District Court, denying Postconviction Relief, in the
matter of State v. Leonor, Doc. 149 No. 834; CR 109042117.

APPENDIX F:

Motion to Alter or Amend Judgment, filed on April 11,
2012, in the Douglas County District Court, by
Petitioner Juan L. Leonor in the matter of State v.
Leonor, Doc. 149 No. 834; CR 10-9042117.

APPENDIX G;•

Order entered on September 13, 2012, by the Nebraska
Supreme Court in the matter of State v. Leonor, Case
No. S-12-000394, dismissing appeal.

APPENDIX H:

Motion to Withdraw Motion to Alter or Amend Judgment
filed in the Douglas County District Court, by
Petitioner Juan Luis Leonor, on October 1, 2012, in
the matter of State v. Leonor, Doc. 149 No. 834; CR
10-9042117.

APPENDIX I:

Order entered on October 2, 2012, by the Douglas
County District Court, Granting Motion to Withdraw;
in the matter of State v. Leonor, Doc. 149 No. 834; CR
10-9042117.
1

APPENDIX J:

! written by Petitioner Juan L. Leonor, to the
Clerk of the Douglas County District Court, dated
November 12, 2013, in the matter of State v Leonor,
Doc. 149 No. 834; CR 10-9042117.

APPENDIX K:

s

im/0 Vacate or Modify Judgment filed on May
, 20i4, with Exhibit # 5 in Support, Filed by
etitioner Juan L. Leonor in the Douglas County
istrict Court, Nebraska; in the matter of State v
Leonor, Doc. 149 No. 834; CR 10-9042117

APPENDIX L:

Successive Motion for Postconviction Relief filed in
the Douglas County District Court, by Petitioner Juan
L. Leonor, on March 2, 2016,
in the matter of State v.
Leonor, Doc. 149 No. 834; CR 10-9042117

APPENDIX M:

Order entered
County Di3ttictnc^t^:„ryiVs0”;e^-s-fPostconviction Relief; in the matter of State v.
Leonor, Doc. 149 No. 834; CR 10-9042117

APPENDIX'N:

Motion to . Alter or Amend Judgment filed on September
13, xui / -in the Douglas County District
Court, by
Petitioner, Juan L. Leonor,
in the matter of State v
Leonor, Doc. 149 No. 834; CR 10-9042117

APPENDIX Or

State v. Abdulkadir, 286 Neb. 417 (Neb. 2013); State
v. Hinrichsen, 292 Neb. 611 (Neb. 2016); State v.
Gonzales,
Neb. 627 (Neb. 2016) . Cases decided by
4-hQ m ,----- 294
—------------the Nebraska Supreme Court holding that a jury
instruction stating that the "lack of sudden quarrel"
is an essential element that must be proven beyond a
reasonable doubt by the State, is the correct Y
statement of the law.

APPENDIX P:

Excerpts from the Trial Bill of Exceptions in the
matter of State v. Leonor,
Doc- 149 No. 834; CR 10-9
042117.
estimony of Trial State Witnesses: Police
ficer Bruce Ferrell; Rodolfo Chavez and Gerardo

.

APPENDIX Q:

28 U.S.C. § 2242

APPENDIX R:

28 U.S.C. § 2243

APPENDIX S:

28 U.S.C..§2244

APPENDIX T:

28 U.S.C. § 2254
2

/

APPENDIX

A

United States Court of Appeal
For The Eighth Circuit
Thomas F. Eagleton U.S. Courthouse
111 South 10th Street, Room 24.329

St. Louis, Missouri 63102
VOICE (314) 244-2400
FAX (314) 244-2780
www.ca8.uscourts.gov

Michael E. Gans
Clerk of Court
February 21, 2020

Mr. Juan Luis Leonor
NEBRASKA CORRECTIONAL FACILITY
54664
4201 S. 14th Street
P.O. Box 22500
Lincoln, NE 68542-2500
RE: 19-3145 Juan Leonor v. Scott Frakes
Dear Mr. Leonor:
Enclosed is a dispositive order entered today at the direction of the court.
Pursuant to Section 106 of the Antiterrorism and Effective Death Penalty Act of 1996,
the grant or denial of an authorization by a court of appeals to file a second or successive
application shall not be appealable and shall not be the subject of a petition for rehearing or for a
writ of certiorari.
Michael E. Gans
Clerk of Court
JPP
Enclosure(s)
cc:

Ms. Denise M. Lucks
Ms. Erin Elizabeth Tangeman
District Court/Agency Case Number(s): 4:07-cv-03139-JFB

Ated states court of af

iLS

FOR THE EIGHTH CIRCUIT

No: 19-3145

Juan Luis Leonor
Petitioner
v.
Scott Frakes, Nebraska Department of Correctional Services
Respondent
Appeal from U.S. District Court for the District of Nebraska - Lincoln
(4:07-cv-03139-JFB)
JUDGMENT

Before LOKEN, BENTON, and KELLY, Circuit Judges.
The motion for authorization to file a successive habeas application in the district court is
denied. Mandate shall issue forthwith.
February 21, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

i

.TED STATES COURT OF AF
1LS
FOR THE EIGHTH CIRCUIT
No: 19-3145
Juan Luis Leonor
Petitioner
v.

Scott Frakes, Nebraska Department of Correctional Services
Respondent

Appeal from U.S. District Court for the District of Nebraska - Lincoln
(4:07-cv-03139-JFB)
MANDATE
In accordance with the judgment of 02/21/2020, and pursuant to the provisions of Federal
Rule of Appellate Procedure 41(a), the formal mandate is hereby issued in the above-styled
matter.
February 21, 2020

Clerk, U.S. Court of Appeals, Eighth Circuit

APPENDIX

B

A.

INSTRUCTION NO. J*

The defendant can be guilty of murder in the second degree or
manslaughter even though he personally did not commit every act involved in
the crime so long as he aided someone else to commit it. The defendant aided
someone else if:
(1)

the defendant intentionally helped or encouraged another
person to commit murder in the second degree or manslaughter;
and

(2)

the defendant knew that the other person intended to commit
murder in the second degree or manslaughter; and

(3)

the murder in the second degree or manslaughter in fact was
committed by that other person.

■i

•U

'i
s.

GIVE!!

c

/ v-

4:05-CV-03162-RGK-P

1

Doc #103 Filed: 08/25/17 Pag

Of 76 - Page ID # 1408 1

j

INSTRUCTION NO. H

The statutes of the State of Nebraska in full force and effect at the time
alleged in the Information provided in substance as follows:
“A person who aids, abets, procures, or causes another to commit
any offense may be prosecuted and punished as if he were the
principal offender.”

(
\

:
I
;
GIVEN

U

C.

/

r

APPENDIX

C

19-3145 Juan Leonor v. Sv

/rakes
Eighth Circuit Court of Appeals

PRO SE Notice of Docket Activity
The following was filed on 10/21/2019
Case Name: Juan Leonor v. Scott Frakes
Case Number: 19-3145
Docket Text:
AMENDED MOTION for Permission to file a Successive Habeas Petition (Rec'd by MAIL),
filed by Petitioner Mr. Juan Luis Leonor w/service 10/15/2019. [4844602] [19-3145]
The following document(s) are associated with this transaction:
Document Description: Amended SHC Petition
Notice will be mailed to:
Mr. Juan Luis Leonor
NEBRASKA CORRECTIONAL FACILITY
54664
4201 S. 14th Street
P.O. Box 22500
Lincoln, NE 68542-2500
Notice will be electronically mailed to:
Ms. Erin Elizabeth Tangeman: erin.tangeman@nebraska.gov

JUAN LUIS LEONOR,

IN THE UNITED STATES COURT OF APPEALS
FOR THE EIGHT CIRCUIT
CASE NO: 19-3145
)
)
)
)

Petitioner,
VS.

AMENDED APPLICATION FOR PERMISSION
TO FILE A SECOND FEDERAL HABEAS
CORPUS PETITION UNDER U.S.C. 28
§ 2254

1

SCOTT FRAKES, Director of
Nebraska Department of
Correctional Services,

)
)
)

Respondent.

COMES NOW, Juan Luis Leonor (hereinafter "Leonor"), and as required by
28 U.S.C § 2244(b)(3)(A), he seeks permission from this Court to file a second
or successive habeas corpus petition.
I.
INTRODUCTION
Mr. Leonor comes for the second time before this Court seeking permission
to file a second § 2254 habeas petition.

The basis he seeks relief for this time

is straighforward:
* Montgomery v. Louisiana, 136 S.Ct. 718 (2016) decided two issues.

One

is that a state is now required to apply a new substantive rule of law
retroactive on collateral review,
concerning juveniles,

Two, it dealt with a retroactive issue

Mr. Leonor's sole invocation of Montgomery concerns

its command that new substantive rules apply retroactively;
* The change in the law in Nebraska concerning murder in the second degree
and sudden-quarrel manslaughter, as held in State v. Smith, 282 Neb. 720
(2011), is under the U.S. Constitution a substantive new rule of consti­
tutional law that Montgomery commands it applies retroactively on collateral
review to Mr. Leonor's case;

*

Under the new

change in the law in State v. Smith, Mr. Leonor s

federal

DUE PROCESS rights were violated;
*

Smith is a new claim never
Mr. Leonor's DUE PROCESS claim under Stated
raised in a previous habeas petition, and the factual predicate for the
discovered previously through the exercise of
claim could not have been
and viewed
due diligence; and the facts underlying the claim, if proven
m light of the evidence as a whole, would be sufficient to establish by
clear and convincing evidence that

but for constitutional error, no

of the underlying
reasonable fact finder would have found him guilty
offense.
II.
relevant

FACTS/HISTORY/EXHAUSTION/DILIGENCE

Among other charges, but only relevant here, Mr. Leonor was
jury in Nebraska of two counts of murder in

convicted by a

the second degree in violation of Neb.

Rev. Stat. § 28-304(1), and his convictions were affirmed in 2002.

See State v.

Leonor, 263 Neb. 86 (2002).
On July 12, 2005, Mr

Leonor filed a habeas corpus petition under § 2254.

See Leonor v. Houston, 2007 ML 2003413 (Case No.

: 4:05-cv-3162).

Finding all but

relief was denied, Id. at * 1. Certificate
one claim defaulted, habeas corpus
Leonor v. Houston, 2007
of Appealability ("COA ) was not granted by this Court.
WL 4233316.
When Mr. Leonor's convictions were affirmed in 2002, the law in Nebraska
the second degree and manslaughter was
held that the difference between murder in
State v. Jones, 245 Neb. 821 (1994). Still
the presence or absence of intent.
either
Mr. Leonor's jury was instructed that they could have convicted him of
intentional murder in the second degree or
2

intentional manslaughter, but without

instructing them.on the fact that distinguished these two intentional offenses,
which at the time none existed.

See (Exhibit #1).

In 2011, however, the Nebraska

Supreme Court in State v. Smith, 282 Neb. 720 (2011) modified its law and held
that manslaughter upon a sudden quarrel is an intentional offense and the difference
between murder in the second degree and sudden-quarrel manslaughter is the presence
or absence of "the sudden quarrel."
overruled.

Id. at 734.

Thus, State v. Jones, was

Id.

Since State v. Smith was decided, Mr. Leonor has, with due diligence, but
without success, tried to get his convictions for murder in the second degree
overturned alleging that he is entitled to the new rule announced in State v. Smith
(hereinafter "State-v.-Smith-Due-Process Claim").
Mr. Leonor's first attempt was in 2012 when he timely sought state postconviction relief.

Relief was denied because, pertinent here, his State v. Smith

Due-Process Claim could have been raised on direct appeal or in previous postconviction proceedings pre-State v. Smith,

(State v. Smith did not exist in 2002—

when Mr. Leonor's direct appeal was had, nor in 2003—when his first postconvic­
tion proceeding was had, nor in 2008—when his second postconviction proceeding
was had).

Mr. Leonor attempted to appeal the denial of postconviction but the

appeal was dismissed as premature because Mr. Leonor had filed a motion to alter
or amend the judgment that had suspended the appeal process.

Shortly thereafter,

Mr. Leonor decided to withdraw his motion to alter or amend judgment and proceed
with the appeal.

For this, he filed for withdrawal of that motion,

Said motion

was withdrawn, however, Mr. Leonor was not notified within the 30-days timeline
to file for an appeal, which by Nebraska law, he was entitled to notification.
(Mr. Leonor learned about said ruling after he wrote the clerk inquiring for the
status of the motion to withdraw, which occurred about a year or so after the ruling).

3

After Mr. Leonor learned that there had been a ruling on the motion to withdraw
and he was not notified about it, he sought modification of the judgment (which is
permitted by Nebraska law),

asking the postconviction court to reenter its judgment

denying postconviction relief, claiming that the court's clerk had failed to notified
him about the ruling in question.

As of today, there has been no decision made

by the state court on the modification of the judgment matter since 2014. (Although
Mr. Leonor has no record available of all these proceedings mentioned above involving
his State v. Smith Due-Process Claim, he asserts under penalty of perjury that it
all:is true).

Further, perhaps these proceedings become moot due to the fact that

in 2012, the Nebraska Supreme Court held that State v. Smith was not retroactive
on collateral review.

See State v. William-Smith, 284 Neb. 636, 654-655 (2012).

On January 25, 2016, the U.S. Supreme Court decided Montgomery v. Louisiana,
136 S.Ct. 718 (2016), holding that "[i]f ... the Constitution [not the State, not
the courts] establishes a rule and requires that the rule have retroactive appli­
cation, the a state court's refusal to give the rule retroactive effect is
reviewable by this Court."

Id. at 727.

In 2016, following the Montgomery v. Louisiana decision, Mr. Leonor timely
moved for successive state postconviction.

There, he argued that Montgomery v.

Louisiana and other U.S. Supreme Court cases command that the new rule announced
in State v. Smith was substantive in nature and thus applies retroactively to his
case on collateral review.

In 2017, the state court denied relief holding that

Mr. Leonor could have raised his State v. Smith Due Process Claim when he filed
his 2012 postconviction motion, thus it was procedurally barred.

(As explained

above, Mr. Leonor did raise that claim in his 2012-postconviction motion, so, in
a timely fashion he asked the postconviction court to alter or amend its judgment
explaining that he did raise his claim in his 2012 postconviction motion).
4

As of

today, there has been no ruling entered on Mr. Leonor's motion to alter or amend
judgment.

(Although Mr. Leonor has no record available of all those proceedings

he mentioned above, he asserts under penalty of perjury that all is true),

However,

on January 2018, the Nebraska Supreme Court considered whether its holding in
State v. Smith was a substantive rule of law through the lens of federal law, and
found that that holding was not a substantive rule of law.

See State v. Glass,

298 Neb. 598, 610 (2018)(incidentally Montgomery v. Louisiana was acknowledged).
The decision in State v. Glass makes now futil any waiting on further consi­
deration from the state courts concerning Mr. Leonor's State v. Smith Due Process
Claim, and for this purpose the state postconviction proceedings are unavailable
to him to complete exhaustion,

See 28 U.S.C. § 2254(b)(l)(B)(i) and (ii).

Also,

since there has been no ruling made yet on his State v. Smith Due Process Claim,
the statute of limitations under 28 U.S.C. § 2244(d) is satisfied.
Also, pertinent here, in 2016 or 2017, Mr. Leonor brought a state habeas
petition directly to the Nebraska Supreme Court, arguing that the statue of his
conviction was unconstitutionally vague under State v. Smith.

Relief was denied.

Then, in 2017, Mr. Leonor asked this Court for permission to file a second habeas
petition under § 2254. In part, Mr. Leonor raised the challenge to the validity
I
of the statute of his conviction. See Leonor v. Frakes, 17-1491 (Mr. Leonor's
application).

In that application, Mr. Leonor also informed this Court that his

State v. Smith Due Process Claim was being exhausted in a state postconviction
proceeding.

Id (Mr. Leonor may have provided the record he is missing here in

support of that application).
not argue actual innocence.

His application was denied because Mr. Leonor did
Id (Judgment) & (State's response).

Also, in 2017, Mr. Leonor sought to reopen the judgment denying his original

5

federal habeas petition by invoking Fed. R. Civ. P. 60(b)(6).

See Leonor v.

There Mr. Leonor sought consideration of his defaulted

Houston, WL 4325714.

claims arguing that Martinez v. Ryan, 132 S.Ct. 1309 (2012) and Trevino v. Thaler,
133 S.Ct. 1911 (2013), provided cause to excuse the default.
WL 4325714, at * 1.

See Leonor v. Houston,

In that same Rule 60(b)(6) proceeding, Mr. Leonor sought

leave to amend a defaulted ineffective assistance of counsel claim—concerning:
confusing jury instructions, reasoning that the amendment related back to the
original claim.

As relevant here, the amendment concerned State v. Smith.

Rule 60(b)(6) and leave to amend were denied.

Both

In reaching that conclusion, the

district court reasoned that Mr. Leonor's allegations grounded on State v. Smith
provided a new claim for relief that required authorization from this Court to
raise it in a second habeas petition.

See Leonor v. Houston, WL 4325714, at *2

Fn. 1 ("These allegations are based upon Nebraska law that did not exist at the
time of Leonor's habeas petition."). COA was not granted by this Court.

See

Leonor v. Houston, 2018 WL 1989641.
That being said, Mr. Leonor has established that his State v. Smith Due-Process
Claim is a new claim not available at the time of his § 2254 habeas petition in
line with § 2244(b)(1).

Mr. Leonor has also established that the postconviction

court had been incorrect in its holdings that Mr. Leonor's State v. Smith DueProcess Claim could have been raised in postconviction proceedings pre-State v.
Smith.

Further, Mr. Leonor has shown that he has been diligently pursuing his

State v. Smith Due Process Claim in the State courts.
III.
THE FACTUAL PREDICATE FOR THE CLAIM COULD NOT HAVE BEEN DISCOVERED
PREVIOUSLY THROUGH THE EXERCISE OF DUE DILIGENCE
As previously argued, State v. Smith was decided in 2011, however, unless
6

State v. Smith is held to apply retroactive to cases on collateral review, Mr.
Leonor's factual predicate cannot be discovered through the exercise of due
diligence.

As previously shown in Part II, following the decision in State v.

Smith Mr. Leonor has diligently sought relief for his Due Process Claims based
on State v. Smith, however, his efforts have been frustrated, in part, by State
v. William-Smith, 284 Neb. 636 (2012), where the Nebraska Supreme Court held that
State v. Smith did not apply retroactively to cases on collateral reivew.

Id. at

654-655.
When Montgomery v. Louisiana is decided on 2016, however, it can be fairly
said that Mr. Leonor's factual predicate grounded in State v. Smith could have
been discovered through the exercise of due diligence, of course, only if Mr.
Leonor is correct in his position that State v. Smith provides a new substantive
rule of constitutional law, which in essence, would apply retroactively to cases
on collateral review as required by Montgomery v. Louisiana.
STATE V. SMITH IS A NEW SUBSTANTIVE RULE THAT APPLIES
RETROACTIVELY ON COLLATERAL REVIEW TO MR. LEONOR
At the time Mr. Leonor was convicted and his convictions were affirmed, in
2002, the law in Nebraska held that the distinction between intentional murder
in the second degree and the offense of manslaughter was the presence or absence
of intent because manslaughter was all an unintentional offense.

See State v.

Jones, 245 Neb. 821 (1994).
Murder in the second degree is defined as causing the death of another
"intentionally, but without premeditation."
definition has been intact since 1977.

Neb. Rev. Stat. § 28-304(1).

This

State v. Smith, 282 Neb. 720, 725 (2011).

Manslaughter is defined as committing that offense in two ways: that is, if
one causes the death of another without malice upon a sudden quarrel, or if one
kills another unintentionally while in the commission of an unlawful act."
7

Neb.

Rev. Stat. § 28-305(1).

Up to the time State v. Smith was decided, the language

in § 28-305(1) had remained intact since 1977.
725.

See State v. Smith, 282 Neb, at

Thus, any changes to Nebraska Statutes §§ 28-304(1) and 28-305(1) have been

the product of judicial interpretation.
Before State v. Jones was decided, the law in Nebraska concerning murder in
the second degree and manslaughter upon a sudden quarrel, was that sudden-quarrel
was an intentional crime, as held in State v. Pettit, 233 Neb. 436 (1989).

Pettit

was overruled by State v. Jones.
In 2011, State v. Smith is decided and overrules State v. Jones and reaffirms
State v. Pettit.

See State v. Smith, 282 Neb, at 734.

In Smith, the Nebraska

Supreme Court interpreted the law and held again that manslaughter upon a sudden
quarrel is an intentional crime and the distinction between murder in the second
degree and sudden-quarrel manslaughter is the presence or absence of the sudden
quarrel.

Id.

The question now is:
in collateral review?

is the decision in State v. Smith retroactive to cases

If Mr. Leonor convinces this Court that State v. Smith is

a substantive new rule of constitutional law because the change in the law there
was protected by the U.S. Constitution, then State v. Smith applies retroactively
to Mr. Leonor's collateral case.
Two cases, as far as Mr. Leonor knows of, have entertained this question
thxgjri in somewhat a different posture:

Iromuanya v. Frakes, 866 F.3d 872 (2017)
Iromuanya does not cite to Montgomery v.

and State v. Glass, 298 Neb. 598 (2018).

Lousiana, and although State v. Glass does, it is only incidental its mentioning.
As will be shown below, even though these two cases do not control the outcome of
Mr. Leonor’s case it is pertinent to compare them to Montgomery v. Louisiana.
8

In Iromuanya, this Court held that the change in the law concerning State
v. Smith was a "state law problem, not a federal due process problem."
881.

Id. at

Importantly, however, is that this Court's assessment of State v. Smith

in Iromuanya was through the lens of the "deferential standard of 28 U.S.C. §
2254(d)."

Yet, it appears that this Court left open

Iromuanya, 866 F.3d at 877.

the possibility that if Iromuanya's case involved evidence of a sudden quarrel
retroactivity would have been in his favor.
criteria.

Id.

Iromuanya did not meet that

Id. at 882.

According to Montgomery v. Louisiana, the issue of retroactivity is not any
more a state law problem pertaining to substantive rules of law.

"If ... the

Constitution [not the state, not a court] establishes a rule and requires that
the rule have retroactive application, then a state court's refusal to give the
rule retroactive effect is reviewable by this Court." Montgomery, 136 S.Ct. at
727.(language in brackets added).

This means, it was not the Nebraska Supreme

Court that created the new rule of law announced in State v. Smith, but the
Federal Constitution.

Id. at 727; see also, Danforth v. Minnesota, 552 U.S. 264,

271 (2008)(the "source of a "new rule" is the Constitution itself, not any judicial
power to create new rules of law.").

Thus, the creation of the new rule in

State v. Smith was governed by the U.S. Constitution which in its essence it is
a constitutional new rule and it is not a state problem whether it is or not
retroactive to cases on collateral review.
constitutional concept,

Nebraska, however, misapprehends this

See State v. Glass, 298 Neb, at 609 ("[a]lthough State

v. [] Smith announced a new manslaughter rule ... it did not recognized a new
constitutional rule.")(emphasis added).
Moreover, it is also up to the Federal Constitution to decide whether the
rule is "substantial" to be retroactive on collateral review.
9

Montgomery,.136

S.Ct. at 729 ("[w]hen a new substantive rule of constitutional law controls the
outcome of a case, the Constitution requires state collateral review courts to
give retroactive effect to that rule.")(emphasis added).
The constitutional new rule announced in State v. Smith is a substantive
rule.

Substantive new rules include "decisions that narrow the scope of a criminal

statute by interpreting its terms." Welch v. United States, 136 S.Ct. 1257, 1265
(2016).

Also "a decision that modifies the elements of an offense is normally

substantive rather than procedural." See Schriro v. Summerlin, 542 U.S. 348 i
354 (2004).
The Nebraska Supreme Court admits that, in State v. Smith it "interpreted
the language of the manslaughter statute [i.e., its terms] to clarify the intent
requirement for sudden quarrel manslaughter and dispel the confusion between the
statutory crimes of second degree murder and sudden quarrel manslaughter." State
v. Glass, 298 Neb, at 610 (emphasis added): See also State v. Hinrichsen, 292
Neb. 611, 622 (2016)("Based on the clarification of the of the elements of the
crimes of second degree murder and voluntary manslaughter, we conclude that the
second degree to manslaughter step instruction given in Smith was incorrect.")
(emphasis added).

The clarification of the terms of the elements of the crimes

of murder in the second degree and sudden quarrel, as done in State v. Smith,
is what the U.S. Supreme Court in Welch v. United States defines as a substantive
rule.

Id. 136 S.Ct. at 1265.
These two statutes, however, were not only clarified by interpreting their

terms in State v. Smith, but also by making sudden quarrel manslaughter an inten­
tional offense, it means the element of "intent" was modified into § 28-305(1)—
the manslaughter statute,

Also, the "absence of sudden quarrel" is an additional

element added into § 28-304(1)—the murder in the second degree statute.
10

See

f

State v. Hinrichsen, 292 Neb, at 634 ("In'Smith, the jury was prevented from
considering the crucial issue—whether the killing, although intentional, was
the result of a sudden quarrel. The existence of a sudden quarrel was an additional
element the jury needed to consider, but the instruction prevented it from doing
so.")(emphasis added).

Thus, in line with Schriro v. Summerlin, the modification

of the elements of murder in the second degree and sudden quarrel manslaughter,
Schriro, 542 U.S. at 354.

constitute a susbtantive rule.

Further, as previously mentioned, ante Part II, p. 4, the Nebraska Supreme
Court in State v. Glass, held that its decision in State v. Smith was not a
substantive rule of law.

In reaching that conclusion, the Glass Court held:

We conclude that the holding in State v. [] Smith that it is improper
for a jury to donsider second degree murder without simultaneously considering
sudden quarrel manslaughter, is a change to the acceptable method for the
jury to deliberate and is a procedural change "regulat[ing] only the manner
of determining the defendant's culpability."
Id. at 610 (original emphasis).
The Nebraska Supreme Court in Glass completely ignored that it had clarified
and modified the elements of murder in the second degree and sudden quarrel manslaughter.

The procedural aspect that the Glass Court speaks about is simply the

result of the substantive change.

Which is obvious, after it did a substantive

change it had to create a procedural change in order for the modified elements
to operate constitutionally.

In fact, a similar approach was considered by the

Supreme Court in Montgomery v. Louisiana, which was referred to as " a procedural
requirement necessary to implement a substantive guarantee with a rule that
regulate[s] only the manner of determining the defendant's culpability." Id. 136
S.Ct. at 734 ("There are instances in which a substantive change in the law must
be attended by a procedure that enables a prisoner to show that he falls within
11

the category of persons whom the law may no longer punish.")(original quotations
and emphasis); see also, Wright v. United States, 902 F.3d 868, 871-872 (8th Cir.
2018)(acknowledging this procedural requirement to implement s substantive rule
approach in Montgomery).
That being said, this Court or the federal district court is not bound by
the decision in State v. Glass because there is no deferential owed to the Nebraska
Supreme Court.

In any event, this appeals court can review the State v. Glass

decision through the Constitution lens since..that case controlled Mr. Leonor's case
during exhaustion of his State v. Smith Due Process Claims.
Therefore, the decision in State v. Smith is a new substantive rule of
constitutional law that applies retroactively to Mr. Leonor's collateral proceeding.
As such,

the factual predicate founded in State v. Smith, has been discovered

through the exercise of due diligence after the decision in Montgomery v. Louisiana,
commanding that Nebraska shall apply retroactively a substantive rule of law.
IV.
THE FACTS UNDERLYING THE CLAIM, IF PROVEN AND VIEWED IN
LIGHT OF THE EVIDENCE AS A WHOLE, WOULD BE SUFFICIENT TO
ESTABLISH BY CLEAR AND CONVINCING EVIDENCE THAT, BUT FOR
CONSTITUTIONAL ERROR, NO REASONABLE FACT FINDER WOULD HAVE
FOUND HIM GUILTY OF THE UNDERLYING OFFENSE
The miscarriage of justice exception, ... applies to a severely confined
category cases in which new evidence shows it is more likely than not that no
reasonable juror would have convicted [the petitioner]." MCquigging v. Perkins,
569 U.S. 383, 395 (2013).

However, 'Congress ... required second or successive

habeas petitioners attmepting to benefit from the miscarriage of justice exception
to meet a higher level of proof ("clear and convincing evidence") and to satisfy
a diligence requirement."

Id. at 396.

Being that the standard governing here

is the miscarriage of justice, but to a higher degree, Mr. Leonor would make
12

reference to Bousley v. United States, 523 U.S. 614 (1998), which held that to
establish the miscarriage of justice exception one must "show it is more likely
than not that no reasonable juror would have convicted him."

Bousley permits

petitioners to collaterally attack a conviction on the basis of intervening decisions
modifying the substantive criminal law defining the offense, despite procedural
default, if the petitioner makes a showing of actual innocence—that the petitioner
did not commit the offense as modified by a change in the law that descriminalizes
the conduct.

See United States v. Morgan, 230 F.3d 1067 (8th Cir. 2000)(citing

Bousley).
Mr. Leonor's miscarriage of justice claim is premised in Bousley and Morgan,
of course, but hold to a higher standard.
As previously argued above, ante Part III, pp. 7-12, Mr. Leonor has made
a showing that there was an intervening decision modifying controlling precedent
between the time of Mr. Leonor's convictions and collateral proceedings.

That

is, at the time of Mr. Leonor's convictions in 200Q and when his convictions were
affirmed in 2002, the controlling law was State v. Jones which held that the
distinction between murder in the second degree and sudden-quarrel manslaughter
was the presence or absence of intent, being that murder in the second degree
was an intentional crime and sudden-quarrel manslaughter was not.
In 2011, nine years after Mr. Leonor's convictions were final, State v. Smith
was decided and intervened by overruling State v. Jones, and by modifying the
elements of murder in the second degree and sudden-quarrel manslaughter.

That

is, State v. Smith held that sudden-quarrel manslaughter is an intentional crime
same as murder in the second degree.

Smith, 282 Neb, at 734.

As modified the law between the interplay of murder in the second degree
and sudden quarrel manslaughter, State v. Smith descriminalized the conduct by
13

which Mr. Leonor was convicted of, which now constitutes that his actions do not
constitute the crime of murder in the second degree, but intentional manslaughter
due to the presence of a sudden quarrel.
The definition of a sudden quarrel is as follows:
A sudden quarrel is a legally recognized and sufficient provocation
which causes a reasonable person to lose normal self-control. It does not
necessarily mean an exchange of angry words or an altercation contemporaneous
with an unlawful killing and does not require a physical struggle or other
combative corporal contact between the defendant and the victim. The question
is whether there existed reasonable and adequate provocation to excite one's
passion and obscure and disturn one's power of reasoning to the extent that
one acted rashly and from passion, without due deliberation and reflection,
rather than from judgment.
State v. Abdulkadir, 286 Neb. 417, 425-426 (2013).
The evidence presented against Mr. Leonor, alone, proves the presence of
a sudden quarrel.

This means it is evidence "clear and convincing" because it

was presented not by Mr. Leonor, but by the State.

That is, the State presented

evidence that the victims-members of a rival gang known as "Lomas," sought to
beef up with Mr. Leonor and his companion—who were members of the gang known
as "Surenos."

That is, the victims threw rival gang signs at Mr. Leonor and his

companion meaning they wanted war, and Mr. Leonor's companion responded to the
victims' provocation by throwing gang signs back, and consequently he started
shooting at the victims' car while Mr. Leonor was driving his vehicle.

See

(Exhibit # 2)("Malo" is referring to Mr. Leonor, and "Creeper" is referring to
Mr. Leonor's companion); see also State v. Leonor, 263 Neb, at 97 ("We determined
that the evidence was sufficient to support the guilty verdicts.

The evidence

showed that Leonor told Ortiz that he and Gonzales had shot someone who had
thrown a Lomas gang sign at them[.]").
The provocation of the victims was the evidence upon which the Nebraska
14

I

Supreme Court had sustained Mr. Leonor's convictions for murder in the second
degree.

In other words, the Nebraska Supreme Court, under the law at the time,

found the provocation of the victims and the reaction taken to that provocation
(the shooting and the killing), had been intentional.

Now that the law, as

modified reduces the conduct of sudden quarrel-provocation to intentional mans­
laughter, the Nebraska Supreme Court's reliance on that evidence as sufficient
to sustain Mr: Leonor's convictions as intentional, it is clear and convincing
evidence that Mr. Leonor is innocent of murder in the second degree, but of the
lesser crime of manslaughter, which is intentional too.
The State's evidence also showed that since the middle of 1998 there was
a marked increase in violence in south Omaha involving Lomas and Surenos gang
members, and that it escalated significantly in 1999, as to homicides and driveby shootings.

(Exhibit # 3).

This shooting occurred in 1999.

Leonor, 263 Neb, at 89 (November 22, 1999, Incident).

See State v.

The State also presented

evidence that the mother of a Sureno member had been shot days before by a Lomas
gang member.

(Exhibit # 4).

This evidence, together with the provocation

evidence, clearly and convincing shows that following the provocation of the
victims, Mr. Leonor's companion was not going to stand the chance of him or Mr.
Leonor getting shot or killed by the Lomas gang members who had provoked them
by calling for war initiated by the Lomas gang signs.

Mr. Leonor's companion

did not have to wait to see if the victims were capable of doing it or if they
had a gun.

At the time, any confrontation between members of these two gangs

involved a shooting or a homicide.

See e.g., State v. Foster, 286 Neb. 826,

850-853 (2013)("general statements that gang members have guns and use them ...
was a fact that would have been known by the jury as a matter of common knowledge.").
15

t

Mr. Leonor's jury heard all this evidence mentioned above of the presence
of a sudden quarrel provocation, but did not know that they could have considered it
to find Mr. Leonor innocent of intentional murder in the second degree, because
the law at the time did not allow them to do so.

Had they knew that evidence

presented by the State of the presence of a sudden quarrel provocation constituted
also an intentional killing, i.e., manslaughter upon a sudden quarrel, no reasonable
fact finder would have found him guilty of the underlying offense.
In Bousley v. United States, the Supreme Court allowed the petitioner to
show that he was actual innocent by providing evidence that "demonstrate no more
than that he did not "use" a firearm as that term is defined in Bailey."
Bousley, 523 U.S. at 624.

See

As for the Government, it was not limited to rebut

the petitioner's evidence of "any showing that [he] might [have] take[n]."

Id.

Under that approach, the miscarriage of justice standard that "it is more likely
than not that no reasonable juror would have convicted him,"
have been met.

Id. at-623, would

That is, the district court was required to conduct an assessment

of credibility by weighing both the petitioner's and the.Government's evidence.
Here, Mr. Leonor surpasses the miscarriage standard in Bousley, and meets
the miscarriage of justice standard in § 2244(b)(2)(B)(ii).

That is, Mr. Leonor's

"clear and convincing evidence" lies on the State's own evidence and the Nebraska
Supreme Court's upholding of that evidence as sufficient, cf.

Wadlington v.

United States, 428 F.3d 779, 783 (8th Cir. 2005)("a party generally cannot
demonstrate actual innocence where there is sufficient evidence to support a
conviction.").
Mr. Leonor has met both standards of miscarriage of justice, the Bousley,
which is permissible, see Davis v. Kelley, 854 F.3d 967 (2017)(petitioner sought
16

permission to file a successive petition, in part, argued that the miscarriage
exception of justice entitled him to successive petition relief,

This Court

found that Davis did not assert he was actual innocent, thus the exception did
not apply), and the "clear and convincing evidence" situated in § 2244(b)(2)(B)
(ii).
V.
IN LIGHT OF THE CLEAR AND CONVINCING EVIDENCE, IT IS SUFFICIENT
TO ESTABLISH THAT, BUT FOR CONSTITUTIONAL ERROR, NO REASONABLE
FACT FINDER WOULD HAVE FOUND HIM GUILTY OF THE UNDERLYING OFFENSE
The Constitutional error that Mr. Leonor :seeks to raise in a second habeas
petition embraces, as required by § 2244(b)(2)(B)(i) and (ii), see Engesser v.
Dooley, 686 F.3d 928, 936-937 (2012), the factual predicate in question, and the
facts that show innocence.

Also, the constitutional error, as previously said,

ante Part II, p. 6, is a new claim.

Leonor v. Houston, WL 4325714, at * 2, Fn.

_1 ("These allegations are based upon Nebraska law that did not exist at the time
of Leonor's habeas petition.").
The new claim that Mr. Leonor seeks to raise in a second habeas petitition
is as follows:
GROUND ONE, Claim A: Mr. Leonor's 14th Amendment Due Process Constitutional
right was violated because his jury was not! instructed on the element of
"absence of sudden quarrel," the fact that distinguishes intentional-murder
in the second degree from intentional manslaughter, which the State must
ihave proven beyond a reasonable doubt. As a result, the burden was shifted
bn Mr. Leonor.
Due Process requires the State to prove, beyond a reasonable doubt, every
fact necessary to constitute the crime with which a defendant is charged.

In re

Winship, 397 U.S. 358, 364 (1970); Mullaney v. Wilbur, 421 U.S. 684 (1975).
The absence of a sudden quarrel, when appropiate, is not an affirmative
defense, but an element of murder in the second degree.

17

This means, the presence

of a sudden quarrel is the fact that distinguishes intentional-murder in the
second degree from intentional manslaughter.

State v. Smith, 282 Neb. at 733-

734. Mr. Leonor was charged with second degree murder-an intentional offense,
and as shown above, ante Part IV, pp. 14-16, evidence of the presence of a sudden
quarrel exists in his case (which is incorporated it here by the mentioning of
it). As such, Mr. Leonor is entitled to have his jury consider whether the
intentional offense was the result of a sudden quarrel, which carries a sentence
of no more than 20 years imprisonment.

Under the convictions for murder in the

second degree he was sentenced to 20 years to life for each count, plus the
sentences for the weapons charges linked to the murders,

cf. U.S. v. Pirani,

406 F.3d 543, 554 (2005)("It is a miscarriage of justice [justifying remand] to
givea person an illegal sentence that increases his punishment, just as it is
to convict an innocent person.")(citation omitted).
For this to be accomplished, the trial court is required to submit to Mr.
Leonor's jury, and the state is required to prove beyond a reasonable doubt, the
absence of a sudden quarrel as an "additional element" of intentional murder in
the second degree.

State v. Hinrichsen, 292 Neb, at 634.

Mr. Leonor was tried as an aider and abettor.
at 97.

State v. Leonor, 263 Neb,

Even though at the time of his convictions Nebraska law stated that

sudden-quarrel manslaughter was an unintentional offense, see State v. Jones,
245 Neb, at 830., however, Mr. Leonor's jury was instructed that they could
have convicted him of either "intentional" murder in the second degree, or
"intentional" manslaughter.

(Exhibit # l)(Jury Instruction No. 6).

The unfairness

that Mr. Leonor faced with Jury Instruction No. 6, in conjuction with all the
jury instructions is, that by law, the State did not have to prove any fact that
18

would have distinguished these two intentional offenses; worse, the State did
not even have to prove intent because by the way the jury was instructed in Jury
Instruction No. 6, the intent was already implied.

And since the law at the

time did not provide any fact that would have distinguished these two intentional
crimes, Mr. Leonor could not have brought as a defense anything to seek a conviction
for manslaughter.

Mr. Leonor believes that he was found guilty of intentional

murder in the second degree because the jury may have thought that he had to
prove the difference between the two intentional crimes,

Mr. Leonor was entitled

to remain silent by the U.S. Constitution.
This violation of due process amounts to structural error.
does not, the violation was prejudicial.

And even if it

That is, the State failed to prove beyond

a reasonable doubt the absence of a sudden quarrel in all of its criteria, and
as a result, the burden was shifted to Mr. Leonor.

The trial court erred in no

instructing Mr. Leonor's jury on the element of "absence of sudden quarrel."

In

finding Mr. Leonor guilty of murder in the second degree, his jury was influenced
by thinking that he had failed to prove the fact that distinguished intentional
murder in the second degree from intentional manslaughter. (Exhibit # 1).
the error was prejudicial.

Thus,

Bretch v. Abrahamson, 507 U.S. 619, 638 (1993); State

v. Trice, 286 Neb. 183, 192 (2013)("because there was evidence—although slight-upon which a jury could have convicted Trice for sudden quarrel manslaughter,
that error was prejudicial."); Iromuanya v. Frakes, 866 F.3d at 881-882; AlarconChavez v. Nebraska, 2018 WL 4701309, * 12 (Alarcon-Chavez's claim might have some
merit if there were any evidentiary basis for finding that the salient issue was
the distinction between second degree murder and manslaughter, as it was in Smith).
Therefore, had Mr. Leonor's jury been instructed that the presence of a
sudden quarrel entitles him to manslaughter his jury would have found him no guilty
19

of murder in the second degree.
GROUND ONE, Claim B: NEBRASKA'S STATUTE FOR MURDER IN THE SECOND DEGREE AND
THE DEFINITION OF SUDDEN QUARREL ARE UNCONSTITUTIONAL UNDER THE
CONSTITUTION’S PROHIBITION OF VAGUE CRIMINAL LAWS
In no case, does Nebraska's statute, § 28-304(l)-for murder in the second
degree place the burden of proving the one fact that distinguishes second degree
murder from sudden quarrel manslaughter on the state.

Nor does it give a fair

warning of what a defendant's burden will be regarding a defense against murder
in the second degree.

This lack of warning causes the presumption of that fact

from no evidence and permits the arbitrary enforcement of second degree murder
rendering the criminal statute unconstitutional on its face.
Pursuant to State v. Smith, it is required that if enough evidence of a sudden
quarrel is revealed at trial, the trial court must give the jury a murder in the
second degree instruction to include that the state has the duty to prove the
absence of a sudden quarrel.

State v. Hinrichsen, 292 Neb, at 634.

This practice

does not save § 28-304(1) from vagueness.
First, the State is under no constitutional obligation to do anything in
regards to "absence of the sudden quarrel" as an element because that element is
not part of § 28-304(1).

See Patterson v. New York, 432 U.S. 197, 210 (1977)

(Due Process Clause requires the prosecution to prove beyond a reasonable doubt
all of the elements included in the definition of the offense of which the
defendant is charged).
The prosecution can arbitrarily choose to not present any evidence of a
sudden quarrel in a murder in the second degree case even when it had evidence
of it.

Thus, in order for a defendant to be entitled to the State v. Smith

promised instruction, he is forced to give up his right to remain silent and
produce therefore evidence of the sudden quarrel even if that evidence is in the
hands of the State.

That leads to arbitrariness and discrimination.

20

Second, the police or prosecutors can arbitrarily choose to charge a defendant
with second degree murder and ignore evidence of a sudden quarrel. Without an
ascertainable standard not only police and prosecutors, but also courts can
arbitrarily choose who or when a defendant quilifies for a conviction on mans­
laughter upon a sudden quarrel instead of murder in the second degree,

i.e., to

a sentence of a maximum to life in prison or to a maximum of 20 years in prison.
That's too much discretion." Thus, § 28-304(1) permits a standarless sweep that
allows policeman, prosecutors, and judges to pursue their predilections.

Consider

for example, this Court's assessment of whether there is evidence of a sudden
quarrel in Mr. Leonor's case.

How's this Court determining the assessment.

on what? What is the State doing in that regard?

Based

See Johnson v. United States,

135 S.Ct. 2551, 2557 (2015)("How does one go about deciding what kind of conduct
the ordinary cases" involves?

A statistical analysis of the state reporter? a

survey? Expert evidence? Google? Gut instinct?").
The definition of "sudden quarrel" is also vague.

Its definition says that

it applies only to a "reasonable person." State v. Dubray, 289 Neb. 208, 242
(2014)(The reasonable person test is a reference to a hypothetical ordinary person.
The concept of manslaughter is a concession to the failty of human nature, but
it was not intended to excuse a defendant's subjective personality flaws.).

Who

is an "ordinary" person in the eyes of police, jurors, courts, prosecutors?

How

it is determined whether a defendant has or not personality flaws? What type of
personality flaws is a juror, a prosecutor, a police man, a judge looking for
before determining whether a defendant is a reasonable person? Does a gang member
has personality flaws?

Is he a reasonable person? How about a person of color?

or the status of a person?
person.

Perhaps being illegal in the country is not a reasonable

This definition allows too much discretion and discrimination, as well
21

arbitrariness.
Both the definition of sudden quarrel and the functioning of § 28-304(1)
based on State v. Smith, are judicial legislation and this violates the guarantee
of separation of powers under the Nebraska Constitution and thus it is a violation
of the 14th Amendment to the U.S. Constitution.
Therefore, the definition of sudden quarrel and § 28-304(1) violate the 14th
Amendment, Due Process Clause prohibiting the enforcement of vague laws.
A

/V /V St /> S\ St St St

Through these Due Process Claims raised above based on State v. Smith, the
standard under § 2244(b)(2)(B)(i), (ii), is met.

That is, the factual predicate,

the facts underlying the claims, and the Due Process Claims go hand to hand in
harmony, as the language of that provisions reads. The constitutional error is
there, and the facts that supported, by clear and convincing evidence, is
sufficient to establish that no reasonable fact finder would have found Mr. Leonor
of murder in the second degree.
For instance, if § 28-304(1) is declared vague in violation of Due Process,
as well the definition of sudden quarrel, it means they are "no law at all." See
United States v. Davis, 139 S.Ct. 2319, 2323 (2019).

This means, without a statute

no reasonable fact finder would find Mr. Leonor guilty of murder in the second
degree.

It should be noted that Mr. Leonor raised the challenge to the statute

claim in his previous application for permission to file a second habeas petition.
Leonor v. Frakes, 17-1491 (application). This claim, too, at the time was under
exhaustion in the state courts.

But since no second habeas petition was granted

Mr. Leonor is no barred from raising it here.
332-334 (2010).

Magwood v. Patterson, 561 U.S. 320,

Therefore, this Due Process Claim is proper here too.
22

VI.
STATE V. SMITH IS A NEW SUBSTANTIVE RULE OF LAW
RETROACTIVE ON COLLATERAL REVIEW
Mr. Leonor advances that his claim, see Part V, pp. 17-19, relies on a new
rule of constitutional law, made retroactive to cases on collateral review by the
Supreme Court, that was previously unavailable.

See § 2244(b)(2)(A).

At least, in the context of this case where the new rule was created by the
Nebraska Supreme Court and not the U.S. Supreme Court, the U.S. Supreme Court in
Montgomery v. Lousiana was clear that "when a new substantive rule of constitu­
tional law controls the outcome of a case, the Constitution requires state
collateral review courts to give retroactive effect to that rule."
at 729.

Id. 136 S.Ct.

Thus, if the new rule announced in State v. Smith is a substantive rule

of constitutional law, Montgomery commands that that rule be retroactive to Mr.
Leonor on collateral review.
The U.S. Constitution, here, commands that the rule announced in State v.
Smith is a substantive rule of Constitutional law, which is required as stated
in Welch v. United States and Schriro v. Summerlin, as Mr. Leonor argued above,
see ante Part III, pp. 7-12, which is incorparated here by the mentioning of it.
In fact, in Tyler v. Cain, 533 U.S. 656, 669 (2001)(Justice 0.Connor concurring),
Justice 0.Connor "reasoned that the Court can make "a new rule retroactive through
multiple holdings that logically dictate the retroactivity of the new rule." See
Goodwin v. Steele, 814 F.3d 901, 904 (8th Cir. 2014).

The holdings in Welch v.

United States, Schriro v. Summerlin, and Montgomery v. Louisiana, logically
dictate the retroactivity of State v. Smith to Mr. Leonor's collateral case.
Thus, State v. Smith is a new rule that applies retroactively on collateral

23

review, as held by the U.S. Supreme Court in Montgomery v. Louisiana.
VII.
MR. LEONOR IS ENTITLED TO AMENDMENT AND THE APPOINTMENT OF
COUNSEL
This is an amended application seeking permission to file a second habeas
corpus petition.

There are facts that Mr. Leonor cannot substantiate at this time

from the record, such as the facts in his argument that he had presented his Due Process
claim diligently for exhaustion in the State courts, see ante Part II, pp. 3-5.
It is Mr. Leonor's understanding that the "record is what a federal court reviews
in a successive petition." Engesser v. Dooley, 686 F.3d at 937.

A couple of years

ago, the Nebraska State Penitentiary where Mr. Leonor is incarcerated implemented
a regulation requiring prisoners to get rid of excessiveness of property that
included legal papers that did not fit in the cell's locker, otherwise anything
found outside the locker would be confiscated and disposed of.

Mr. Leonor sent

all his legal papers/documents to his family keeping in mind that if he needed
them he would ask for them.

Unfortunately, the prison regulations do not allow

legal documents entering the facility through the mail room unless they come from
an attorney or the courts.

Mr. Leonor does not have an attorney.

Thus, he cannot

retrieve at the moment the documents to show that he is being pursuing his Due
Process diligently in the State courts.
With the assistance of an attorney, Mr. Leonor will be able to retrieve the
pertinent documents to be presented as a record before this Court to substantiate
his allegations seeking to file a successive habeas petition.

That, of course,

would required a slight amendment to this Amended application for leave to file
a successive habeas petition.

Not having said record Mr. Leonor faces a

disadvantage from the Respondent which is crucial to assessment of this Court in

24

granting or denying his application.
VIII.
MR. LEONOR HAS MET THE PRIMA FACIE SHOWING HE IS
ENTITLED TO FILE A SECOND HABEAS PETITION
As argued at Part III, pp. 6-12, Mr. Leonor brings a new factual predicate
for his Constitutional Due Process claim, in line with § 2244(b)(2)(B)(i). And
as argued at Part IV, pp. 12-17, the facts underlying his Due Process claim show
innocence.

And as also argued in Part V, pp. 17-20, he would not have been

convicted of murder in the second degree, but for the constitutional error.
In addition, Mr. Leonor has also met the requirement that his new claim is
based on a new substantive rule that, the U.S. Supreme Court makes retroactive to
cases on collateral review, see ante Part VI, p. 20, which if granted, then it
eliminates anyi assessment under § 2244(b)(2)(B)(i) and (ii).

See § 2244(b)(2)(A)

(the word "or," if used properly, is a disjunctive from § 2244(b)(2)(B)).
Therefore, under § 2244(b)(3)(C), this Court is authorized to grant Mr.
Leonor's application for leave to file a second habeas petition under § 2254,
because he has established a prima facie showing that he is entitled to that
opportunity.
, \k
Respectfully submitted on this IS day of October, 2019/'”by>x
/'

I declare under penalty o:

jufy. that the foregoing is true and correct.

r

DATED: ffi-lS-h

l

(OR
54664
PXL
22500
LINCOLN, NE 68542-2500

25

I

/

APPENDIX

D

JIIIMI

Hill III I If||II fin

COURT OF DOUGLAS COUNTY, NEBRASKA
)
Doc. 149 No. 834

000689228D01

State of Nebraska,
Plaintiff,

)
)
)

V.

)

SUCCESSIVE MOTION
FOR POSTCONVICTION RELIEF

)
)
)

Juan Luis Leonor,
Defendant.

COMES NOW, Juan Luis Leonor, the defendant (hereinafter “Leonor”), pursuant to
Neb.Rev.Stat. § 29-3001 through $ 29-3004 et seq. (reissue 1995), and hereby moves this
Court to vacate and set aside the judgments of conviction and sentence tiapLzusiaagainst him in the above entitledfease.

MAY 3 «
ISSUE I
JOHN M- FRIEND
LEONOR’S NEWLY DISCOVERED EVIDENCE SHOWS ACTUAli-g^^ScS^
THEREFORE. HIS CONVICTION IS IN VIOLATION OF DUE PROCESS UNDER
THE NEBRASKA

CONSTITUTION AND IN VIOLATION OF THE U.S.

CONSTITUTION. EIGHT AMENDMENT -under Herrera V. Collins.

ISSUE 2
LEONOR WAS DENIED HIS CONSTITUTIONAL RIGHTS TO A FAIR TRIAL AND
ADEQUATE DEFENSE AND DUE PROCESS UNDER THE NEBRASKA AND U.S.
CONSTITUTIONS BECAUSE DUE TO THE INCORRECT DECISION MADE IN
State V. Jones, 245 Neb. 821 (1994L WHICH HELD THAT “Where is not requirement
of an intention to kill in committing manslaughter. ... Tthat.1 The distinction between
second degree murder and manslaughter upon a sudden quarrel is the presence or absence
of an intention to kill.” WHICH HAD DEPRIVED LEONOR FROM BRINGING A
DEFENSE ON INTENTIONAL SUDDEN QUARREL AND FAILED TO INFORM
LEONOR OF HIS BURDEN OR THE STANDARD OF PROOF FOR A SUDDEN
QUARREL.

1

ISSUE 7
LEQNOR WAS DENIED HIS RIGHTS TO FAIR TRIAL. DUE PROCESS AND
RIGHT TO EFFECTIVE COUNSEL UNDER THE U.S. AND NEBRASKA
CONSTITUTIONS WHEN TRIAL COUNSEL FAILED TO OBJECT WHEN THE
PROSECUTOR, in its case in chief, and through leading questions, INTRODUCED,
IMPROPER. HEARSAY. FALSE. FABRICATED AND INADMISSIBLE substantial
evidence THROUGH THE TESTIMONY OF ITS WITNESSES. Gerardo Ortiz. Jose
Hernandez. Arthur Carter, Detective Strong. Daniel Bredow, Mr. Wysocky.
ISSUE 8
LEQNOR WAS DENIED HIS RIGHT TO A FAIR TRIAL. HIS RIGHT TO A
COMPLETE DEFENSE AND HIS RIGHT TO A DUE PROCESS UNDER THE U.S.
AND NEBRASKA CONSTITUTIONS. BECAUSE THE STATE BROUGHT LEQNOR
TO TRIAL WITHOUT HAVING DAVID GONZALES AVAILABLE TO TESTIFY,
when the prosecutor’s theory of the case was that Leonor had aided and abetted David
Gonzales.

ISSUE 9
LEONOR WAS DENIED HIS RIGHTS TO DUE PROCESS, FAIR TRIAL AND
EFFECTIVE ASSISTANCE OF COUNSEL UNDER THE U.S. AND NEBRASKA
CONSTITUTIONS WHEN TRIAL COUNSEL FAILED TO INVESTIGATE
EVIDENCE PRESENTED BY THE STATE AND TO OBTAIN INDEPENDENT
EVIDENCE AND INDEPENDENT EXAMINATION OF THE BULLET REMOVED
FROM the victim MedranoiThis also constituted plain error.)
ISSUE 10
THE STATE FAILED TO PROVE BEYOND A REASONABLE DOUBT THAT
LEONOR COMMITTED INTENTIONAL SECOND DEGREE MURDER, IN
VIOLATION OF THE U.S. AND NEBRASKA CONSTITUTIONS.
ISSUE 11
CUMULATIVE ERROR
*************************************************

3

All this evidence above that trial counsel failed to investigate and obtain, was all
Leonor needed to take an innocence defense in his trial, something that Leonor has
contended since his arrest. Trial counsel knew that Ortiz drove a light brown car.
Leonor asserts that ineffective assistance of counsel exists under U.S. V. Cronic, but
in the alternative, it constitutes ineffective assistance of counsel under Strickland V.
Washington.
Leonor prays this Court would entitle Leonor to an evidentiary hearing and thereafter to
grant him post-conviction relief. Leonor also asserts that plain error exists.
ARGUMENT 10
THE STATE FAILED TO PROVE BEYOND A REASONABLE DOUBT THAT
LEONOR COMMITTED INTENTIONAL SECOND DEGREE MURDER. IN
VIOLATION OF THE U.S. AND NEBRASKA CONSTITUTIONS.
Leonor appealed his conviction for second degree murder arguing on appeal that “the
theory of the state was that gang signs were exchanged and then Leonor chased after the
other vehicle with Gonzales hanging out of the window firing shots ... that the state
pushed the theory that because Medrano was a gang member of a rival gang, Gonzales
intended to kill them.” (Exhibit # 4: Appellant’s brief at p. 17.) As such, Leonor argued
that “the facts of this case suggest that the crime of manslaughter was committed ....
Manslaughter is the killing of another, without malice, upon a sudden quarrel, or causes
the death of another unintentionally while in the commission of an unlawful act. The
obvious difference as it relates to the facts of the present case is the lack of intent
required in the commission of manslaughter.

The state failed to prove, beyond a

reasonable doubt, that the appellant knew that Mr. Gonzales possessed the requisite intent
to kill both victims and that the appellant, himself, had the requisite to kill both victims.”
(Id. at p. 18.)
The argument made by Leonor on appeal was based on the premise that evidence
existed at trial of adequate provocation (BOE 181: 13-22), and that based on the evidence
presented establishing the violent warfare of killings and shootings among the Lomas and
Surenos (BOE 44:15 - 45:12), Gonzales or Leonor had acted unintentionally upon a
sudden quarrel, or while in the commission of an unlawful act, resulting in the killings of
79

Medrano and Valadez, because Gonzales or Leonor were acting in the heat of passion
due to the fact that, had Gonzales or Leonor ignored the provocation, they could have
been shot or killed. That their acts were not intended to kill the victims, but simply they
were responding to the threatening provocation.
The Nebraska Supreme Court affirmed the second degree murder convictions finding
that the state had proven beyond a reasonable doubt all the elements. State V. Leonor, 263
Neb. at 97. (The Court again emphasized that “evidence showed that [Leonor] and
Gonzales had shot someone who had thrown a Lomas gang sign at them,” and that
Leonor and Gonzales “follow[ed] the victim’s car, shooting at it, until the victim’s car hit
a pole.”) i.e., that the crime that Leonor had been intentional.
Leonor did not win on direct appeal because manslaughter was an unintentional crime,
even upon a sudden quarrel. However, in State V. Smith, the Nebraska Supreme Court
now correctly finds that, “Provocation is that which incites another to do something.” Id.
734. “[Provocation not only causes anger; it motivates the actor to want to kill the
provoker. Proof, then, of adequate provocation does not negat[e] intent. It magnifies it.”
Id.
Leonor could not have argued that the crime, even though could have been intentional,
the evidence however defined that a crime of intentional manslaughter -upon a sudden
quarrel was committed. That is because State V. Jones prohibited Leonor from bringing
that argument. Id. 245 Neb. 821, at 830, n.6 (1994) (“[T]here is not requirement of an
intention to kill in committing manslaughter. The distinction between second degree
murder and manslaughter upon a sudden quarrel is the presence or absence of an
intention to kill.”)
The Nebraska Supreme Court recently, in State V Smith, 282 Neb. 720, 735 (2012),
held that a step instruction that did not permit the jury to consider convicting Smith of
intentionally killing Harris as a result of a sudden quarrel was an incorrect statement of
the law. IcL 734., and that the determination in State V. Jones, was an error. Id. at 732733.

The Court further stated: “[W]ith respect to sudden quarrel manslaughter, the

distinguishing factor is that the killing, even if intentional, was the result of a legally
recognized provocation. ...” State V. Smith, 282 Neb. at 732. ‘ In the absence of some
provocation, a defendant’s anger with the victim is not sufficient to establish the requisite

80

of heat of passion. Nor does evidence of a string of prior arguments and a continuing
dispute without any indication of some sort of instant incitement constitute a sufficient
showing to warrant a voluntary manslaughter instruction. Id. at 735.
“A person commits manslaughter if he kills another without malice, either upon a
sudden quarrel, or causes the death of another unintentionally while in the commission of
an unlawful act.” Neb. Rev. Stat. § 28-305(1). A person commits murder in the second
degree if he causes the death of a person intentionally, but without premeditation. Neb.
Rev. Stat. § 28-304(1).
The evidence at trial, and as the Nebraska Supreme Court found, establishes that
Leonor at the most committed a crime of intentional manslaughter upon a sudden quarrel.
The evidence adduced at trial showed that the causation of the killing of the victims was
the result of a gang related provocation. At trial, Police Officer, Bruce Ferrell, testified
that “since about the middle of 1998, there was a marked increase in violence in south
Omaha involving Lomas and Surenos gang members, as well as other Hispanic gangs
perpetrated by Surenos on other gangs. It escalated significantly in 1999. {BOE 44:15 45:12). Officer Ferrell defined that violent crimes were homicides or drive-by shootings.
(BOE 42:22-23) The State also offered evidence establishing that a mother of one of the
Surenos gang member had been shot prior to this shooting by a Lomas gang member.
(BOE 114:8-22)
The evidence available at trial clearly showed that the Surenos and Lomas were
shooting at and killing each other. In fact, the state offered evidence showing that the
Lomas gang members were capable of shooting at the Surenos, or anyone involved with
the Surenos, including a mother, just for being the mother of one of the Surenos gang
members. Evidence further showed that the victims threw gang signs to Leonor and
Gonzales, after which Gonzales threw Surenos gang signs back; then, the shooting
ensued.
Leonor’s respectfully prays that an evidentiary hearing be granted and thereafter, post­
conviction relief.

81

Leonor seeks the appointment of counsel in this matter.
Dated this: \A(A.rdf\ Cj^r^Ql Q

Juan Luis' ^eonor DOC # 54664

Verification/
State of Nebraska

)
)SS.
County of Lancaster)
COMES NOW Juan Luis Leonor, the defendant, pro se, being first duly sworn upon
oath, hereby deposes and states he is the undersigned defendant in the above and
foregoing cause of action (Successive Motion for Post-Conviction Relief); that he knows
the contents therein, and states and avers that to the best of his knowledge and
understanding of the facts the statements contained therein are true and accurate to the
best of his knowledge and belief. This motion was filed by the defendant himself.
By,

Juan Iuis LeonorDOC # 54664
P.O.Box 2500
, NE 68542-2500
SUBSCRIBED AND SWORN to before me and in my presence on this 9^-' day of
March 2012.

SEAL:

A GENERAL NOTARY - State of Nebraska
BRADLEY 8. EXSTROM
■gMg* My Comm. Exp. March 2.2014

83

ft y

y

/

a

Notary imbSc

\

1

APPENDIX

E

\

11'"- -" lj

%*'
J00076691D01

JRT OF DOUGLAS COUNTY, NEBRASKA

THE STATE OF NEBRASKA,
Plaintiff,
vs.
JUAN LUIS LEONOR,
Defendant.

)
)
)

DOC. 149 PAGE 834
CR 10-9042117

)

ORDER DENYING POSTCONVIC^IOK
RELIEF AND MOTION TO RECEDE ^

)
)
)
)

o

to

u~>

i
_

—I

~:j

^

o

zss.

O

v£>

o

Defendant has filed several motions that are before the Court. Each is denied ^#r tfie
reasons stated below:
Factual and Procedural Background
Defendant was convicted after a jury trial of two counts of second degree murder and two
counts of use of a deadly weapon to commit a felony. Defendant’s convictions and sentences
were affirmed by the Nebraska Supreme Court on February 1, 2002. See State v. Leonor, 263
Neb. 86, 638 N.W.2d 798 (2002).

Defendant subsequently filed a motion for postconviction

relief, which was denied by the Honorable Gerald Moran September 10,2003. Defendant filed a
successive motion for postconviction relief, which was again denied as being procedurally barred
by the Honorable Gerald Moran October 2, 2008. Defendant has now filed a third motion for
postconviction relief, along with motions for appointment of counsel and to recuse the
postconviction j udge.
Defendant’s Motions
I. Successive motion for postconviction relief
Defendant’s current motion makes several arguments based on ineffective assistance, due
process violations, errors by the trial court and prosecutorial misconduct.

The Nebraska

c_
g
22 ~n
—
r—'

“m

°a
r~
m

Supreme Court has explained the following with regard to successive motions for postconviction
relief:
The Nebraska Postconviction Act, Neb.Rev.Stat. § 29-3001 et seq.
(Reissue 2008), is available to a defendant to show that his or her
conviction was obtained in violation of his or her constitutional rights.
State v. Marshall, supra. However, the need for finality in the criminal
process requires that a defendant bring all claims for relief at the first
opportunity. Id. Therefore, an appellate court will not entertain a
successive motion for postconviction relief unless the motion affirmatively
shows on its face that the basis relied upon for relief was not available at
the time the movant filed the prior motion. Id.
In the instant case, the allegations in Sims' second motion for
postconviction relief involve ineffective assistance of counsel claims
against his trial and appellate counsel as well as Sims' claim that there was
insufficient evidence to convict him. Sims previously raised, and this court
rejected on direct appeal, Sims' claim that there was insufficient evidence
to convict him. Further, Sims’ claims of ineffective assistance of
counsel were known or knowable to Sims at the time of his direct
appeal and his first motion for postconviction relief.
State v. Sims, 277 Neb. 192, 761 N.W.2d 527 (2009) (emphasis added). Each of Defendant’s
claims were clearly “knowable” to him at the time of his direct appeal or two prior
postconviction motions. Thus, these claims are procedurally barred.
The only claim worthy of separate discussion is Defendant’s first claim, which alleges
actual innocence based on newly discovered evidence. Defendant relies on State v. Lotter, 278
Neb. 466, 771 N.W.2d 551 (2009), to support his claim of actual innocence in an effort to avoid
a procedural bar or the three year limitation imposed by § 29-2103 for presenting newly
discovered evidence. Lotter, however, did not recognize “actual innocence” as a cognizable
claim in Nebraska and this Court is unwilling to do so either. Lotter, 278 Neb. at 482, 771
N.W.2d at 564. Even if the Court were to acknowledge such a claim, it would fail because
Defendant has not established an issue of actual evidence through the exhibits attached to his
motion. See Lotter, supra (holding that even if actual innocence were a congnizable claim, the

2

sJ"'

defendant had failed to present anything to establish a claim of actual innocence and refute the
evidence adduced at trial). Here, Defendant has offered an affidavit that solely relies on hearsay
and another from an individual who did not testify at trial. Thus, the Court finds that even if
actual innocence were a congnizable claim, Defendant has failed to establish actual innocence to
refute the evidence adduced at trial, the same evidence which the Nebraska Supreme Court found
sufficient to affirm Defendant’s conviction on appeal.
II. Motion for appointment of postconviction counsel
Defendant has also requested postconviction counsel, which is denied. States are not
obligated to provide postconviction relief procedures; therefore, when they do, the Due Process
Clause of the United States Constitution does not require states to supply an attorney. State v.
Stewart, 242 Neb. 712, 719, 496 N.W. 2d 524, 529 (1993). The Nebraska Supreme Court has
stated that when “the assigned errors in the postconviction petition before the district court
contain no justiciable issue of law or fact, it is not an abuse of discretion to fail to appoint
counsel for an indigent defendant.

State v. Gonzalez-Faguaga, 266 Neb. 72, 662 N.W.2d

581 (2003). “When, however, the defendant’s petition presents a justiciable issue to the district
court for postconviction determination, an indigent defendant is entitled to counsel.” Id.
III. Motion to Recuse
Defendant’s motion to recuse requests recusal of the Honorable Gerald Moran, who
presided over the trial and subsequent collateral attacks. Judge Moran has retired and therefore,
this issue is moot and Defendant’s request is overruled.

3

IT IS THEREFORE ORDERED, ADJUDGED AND DECREED that Defendant s successive
motion for postconviction relief is denied.
IT IS THEREFORE ORDERED, ADJUDGED AND DECREED that Defendant s motion
for postconviction counsel is denied.
IT IS THEREFORE ORDERED, ADJUDGED AND DECREED that Defendant s motion to
recuse is denied.

DATED this

day of April, 2012.

BY THE COURT:

Marlon Pol
District Court Judge

4

I

APPENDIX

F

000670097DQ
State of Nebraska,

*

T OF DOUGLAS COUNTY, NEBRASKA
Doc. 149 No. 834
)

Vs.

)
)

CR 10-9042117
MOTION TO ALTER OR

Juan Luis Leonor,

)

AMEND JUDGMENT

Plaintiff.

F I!.. E D

)

Defendant.

lii; n.'STr--:r ■

25-1329, an. 1 mcW’&jthis
APR 1 1 2012
Court to alter or amend its judgment entered on April 5, 2012.
Comes Now, Juan Leonor, Pursuant to Neb. Rev.,Stat

JOHM ii i; ;; iQ

Facts
Leonor filed his third motion for Post Conviction Relief; and this Co

finding that all of Leonor’s arguments were procedurally barred because they
motion
“were clearly “knowable” to him at the time of his direct appeal or two prior

5

postconviction motions.” (Order Den. Post. Conv., p. 2)
i .eonor now asserts through this motion that this Court erred in its conclusion that
Leonor’s claims are procedurally barred because they were “knowable” to Leonor in
prior proceedings.

Argument
THE COURT WAS IN ERROR IN FINDING THAT LEONOR S ISSUES
WERE PROCEDI JRALLY BARRED BECAUSE THEY WERE
“KNOWABLE” TO HIM
TSSUES 2.3.4, 5 & 10
First, Leonor’s ISSUES,2, 3,4, 5 and 10, are brought based on current decision made
by theNebraska Supreme Co.urt in State V. Smith, 282 Neb. 720 (2011), which held that
■ ■ , state V. Jones, 245 Neb;’821 U?94) was incorrect in holding that intent was a separation
of secpnd degree mmrdef ftorft manslaughter upon a sudden quarrel. State V. Smith, 282
Neb. at 732-733.
In considering whether Leonor was procedurally barred in his claims raised m his
postconviction, this Court was bound to follow and apply the long standard given by the
Nebraska Supreme Court; that is:
“Once a motion for postconviction relief has been judicially determined,
any subsequent motion for such relief from the same conviction and

1

*

sentence ttiky e* dismissed unless the motion affirmatively shows on its
face that the basis relied upon for relief was not available at the time the
prior motion was filed.”
State V. Rvan, 257 Neb. 635, 647 (1999); State V. Sims, 111 Neb. 192 (2009)
citing State V. Sims, applied the incorrect standard. This Court used the
This Court,
language used by the Nebraska Supreme Court stating that “Sims’ claims of ineffective
assistance of counsel were known or knowable to sims at the time of his direct appeal and
his first motion for postconviction relief,” as being the standard for review or the standard
pplicable to Leonor, and denied Leonor’s claims on this basis, i.e. That Leonor’s claims
a
were “knowable” to him at the time he filed his previous postconviction or his direct
appeal. The Sims

Court found that the defendant’s claims were knowable to him after it

*

found that the basis for relief asked was available to him. i.e. If the basis relied upon
relief, on its face, were available to a defendant, the claims raised were then knowable
to him. This is the question this Court was bound to ask itself An example is StateJL
Boppre, 280 Neb 774 (2010);
“Even assuming Boppre’s due process claim can rest on the above
allegation, his current motion is procedurally barred. The motion fails to
allege when he discovered the alleged prosecutorial withholding of the
aforementioned evidence. The motion for postconviction relief broadly
states that it “is based in part upon information which has been recently
received and is not requesting review of issues already litigated or
decided.” The motion also incorporates portions of M.M.’s “recently
obtained sworn statement.” Boppre fails to allege, however, that the
information contained in this affidavit was unavailable before any of the
-

numerous Challenges already made to his convictions and sentences.
Further, the current petition for postconviction relieffails to specify
which allegations, if any, were unavailable at the time Boppre filed his
prior motions.

{\

2

Neither Boppre’s current petition for postconviction relief nor his brief
identifies any newly discovered evidence that Boppre yvas prevented from
obtaining at the time of his previous motions and appeals”
Id 785-787. (Emphasis added.)
Tn Boppre, the Nebraska Supreme court first considered whether the evidence alleged
lo ix newly discovered was “unavailable” to Boppre when he filed his previous
proceedings for relief. The Court found that Boppre did not specify in his motion for
postconviction whether his alleged newly discovered evidence was available and thus,
ihat Boppre could not have shown that his allegations of ineffective assistance of counsel
and prosecutorial misconduct “could not have [been] presented” before. Id at 786-787.
Unlike State V. Boppre, Leonor did allege that the basis for relief in ISSUES 2, 3, 5
and 10 that intent was an element of sudden quarrel-manslaughter, were not available
until the decision in State V. Smith. (Post. Conv., at pp. 4-5), and that “judicial and
Equitable estoppel” applies to his case (Id. pp. 5-6.), and thus, he is entitled to the
principles of this doctrines because the Nebraska Supreme Court decision in State V.
Jones had made Leonor believed that that was the right law, that intent was not an
element of manslaughter, which made inexistent the recent holding in State V. Smith, and
thus, prevented Leonor from bringing his ISSUES 2, 3, 5, and 10, in his trial, direct
appeal and first and second ppstconviction motions filed.
.

It seems that this Court overlooked this assertion of judicial and equitable estoppel
which is the law and the law favors Leonor. This Court cannot ignore the law and as
such this Court was in error. This Court was also in error because the current decision in
State V. Smith, which is the basis for relief alleged in ISSUES 2,3, 5, and 10, is newly
discovered evidence that, on its face, was not available, muchless knowable, to Leonor
when he had his trial, direct appeal, or any of his two prior postconviction motions.
In respect to ISSUE 4, Leonor argues ineffective assistance of counsel because his
trial counsel did not object to the trial court given jury instructions which did not include
that intent was an element of sudden quarrel-manslaughter, based on the recent decision
in State V. Smith. This claim is not procedural barred for the same reasons stated above
for ISSUES 2, 3, 5, and 10. This claim at the most can call for a conclusion that trial
*

3

counsel was not ineffective because trial counsel could not have objected to what the law
on its face, was. i.e., that the law in State V. Jones was the only law available.
’

i',

' •

-

ISSUES 6.7, 8 & 9
Regarding ISSUE 6 & 7, they are not procedurally barred and the basis for relief
was not available to Leonor. Leorior alleged that he discovered newly discovered
asserting that the evidence presented by the state was false and known to the
evidence
prosecutor to be false, which is the basis for relief, and thus, that evidence discovered
amounted to an allegation of due process.
It is true that Leonor knew that the state’s witnesses (Hernandez, Ortiz and Carter) that
testified that Leonor was involved in this shooting, was false because Leonor has always
maintained that he was not involved in any way in this shooting. Leonor indeed brought
an allegation in his first motion for postconviction relief arguing that their testimony was
false. But the problem was that Leonor could not have proven that their testimony was
false. Specifically their testimony about the gun used in this shooting being a 9mm.
Leonor did not know what type of gun was used in this shooting. The only way to prove
that their testimony was false was if these witnesses recanted their testimony and brought
the truth out. That just recently happened with witness Arthur Carter, whom through his
brother Victor Carter states that he testified falsely at trial and that his testimony was
fabricated by police officers. (Post: Conv., at pp. 43-45.) Which is similar to what
happened in State V. Ryan. 257 Neb. 635 (1999), in that the defendant brought an
allegation on direct appeal that “Judge Finn had an improper communication with the
Timm Family.” Id at 649. The Nebraska Supreme Court found that “there was not
evidence in that record supporting such an allegation.” Id The defendant later brought
his first motion for postconviction raising the same issue to no avail. Id at 649-650.
Finally, the defendant brought a second postconviction motion alleging that newly
discovered evidence -the basis for relief, showed that Judge Finn had an improper
meeting with the Thimm Family, and thus that his Ex Parte allegation was not
.

procedurally barred. The Nebraska Supreme court found that “the basis Ryan relie[d]
upon for relief in [his] second postconviction proceeding was not available at the time his
first postconviction motion was filed.” Then, the Ryan Court said:

4

“If we were to determine that the Heppner ltter was available to Ryan
during his prior postconviction proceeding, we would be requiring Creager
to continue the investigation beyond Judge Finn’s affidavit. This we are
not prepared to do. Once Creager obtained the signed affidavit form
Judge Finn swearing that no such meeting occurred, Creager was entitled
to rely upon that information and end his investigation. Accordingly, we
find that the Heppner letter falls into the second circumstance we have
recognized as a new ground for relief. The letter is newly discovered
evidence which wasnot'available in the prior proceeding. ’

Leonor asserts that State V. Ryan is a great example exhibiting that just because it was
knowable to Ryan that Judge Finn had an improper meeting with the victim’s family, but
Ryan could not have proven that fact, did not procedurally barred him later after he
obtained newly discovered evidence that such meeting occurred, and as shown above,
Ryan was able to re-raise his claim in a second posconviction motion. This case shows
that the standard is not whether a claim was knowable to a defendant, but instead, it
shows that the question always is whether the evidence in support of the claim was
available when a defendant filed his previous proceedings for relief of the same
..........
conviction.
In an evidentiary hearing, Leonor is going to prove that Arthur Carter -through his
own testimony, had testified |alsely and that the state knew that his testimony

was false,

and thus that his due process right was violated.
As for the affidavit of David Gonzales, (Post. Conv., pp. 41-43), Leonor asserts that
David Gonzales was not available to testify at trial, and the state did not make him
available. This is not a situation in that Gonzales was available and he just did not want
to testify. Rather, Gonzales was on the run and his whereabouts were unknown to
Leonor. After Gonzales was arrested and convicted, in 2011, Gonzales reveals to Leonor
what had reallv happened in the said shooting and asserts that he is willing to testify. In
his affidavit Gonzales asserts that the evidence introduced by the prosecutor is false. And
Leonor in an evidentiary hearing is going to prove that.

5

<•

Leonor admits that in ISSUES 6 and 7, in part claims that the evidence was
inadmissible and hearsay. This can be say that it is procedurally barred if viewed the
claim like that. However, Leonor also alleges in these issues that the prosecutor s
evidence was false. Viewing this claim, as that the prosecutor knew that the evidence
was false, is not proceduraHy barred, because Leonor did not learn about this falsity until
David Gonzales and Victor Carter came forth with this evidence, which happened years
after Leonor filed his previous postconviction motions. This Court can view the
allegations made as inadmissible and hearsay evidence just to aid the Court that the
evidence was presented by the prosecutor was fallible.
Again, the law in State V. Boppre, and State V. Ryan, favors Leonor, and therefore,
this Court was in error in holding otherwise because his ISSUES 6, 7, 8, and 9, are not
procedurally barred.
Conclusion
Leonor respectfully prays that this court amend or alter its judgment denying Leonor’s
postconviction motion and grant an evidentiary hearing and the appointment of counsels
to represent him.
Dated this

day ofjfVglQ.

, 2012.,

By,

JuanjLuis'Leonor
Certificate of Sendee
The undersigned certifies that a true and correct copy of the foregoing was served to the
state’s attorney, hall of justice,17th and famam, Omaha, NE 68183, through U.S. Mail
service, postage prepaid, this
day of
I----------- > 2012.

oaS Iaus Leonor DOC# 54664
.0] Box 2500
.into In, NE 68542-2500

*

6

APPENDIX

G

NEBRASKA SUPREME COUR^
>D NEBRASKA COURT OF APF^p,S
OFFICE OF THE CLERK ^
P.O. BOX 98910
2413 STATE CAPITOL
LINCOLN, NE 68509
(402) 471-3731
September 13,2012
Juan Luis Leonor #54664
Penitentiary
P.O. Box 2500
Lincoln, NE 68542 2500
IN CASE OF: S-12-000394, State v. Juan L. Leonor
The following internal procedural submission or filing by a party:
Misc. Submission to Court - Jurisdiction submitted or filed 08/29/12
has been reviewed by the court and the following order entered.
Appeal dismissed. No final order or ruling on appellant's motion to alter or amend the judgment.
See, Neb. Ct. R. App. P. § 2-107(A)(2); Neb. Rev. Stat. § 25-1912(3); State v. Bellamy, 264
Neb. 784 (2002).
Respectfully,
CLERK OF THE SUPREME COURT
AND COURT OF APPEALS

IMPORTANT NOTICE
Please take note of the Supreme Court Rule Amendments regarding Neb. Ct. R. § § 2-102 2-106,
2-107, 2-109,2-113, 2-115 and 2-116 regarding the elimination of the requirement for the filing
of multiple copies of various pleadings.

a'j

'i

APPENDIX

H

000741768D01

cjTATEOF'lOHb^M /
iv

J£T. Of DG0GLA3 CjCjOiGT^ UECfcA&W
•

") OOC- i4q >00. 834

PiainVVfr

41 \/s.
Jtuu L, l£C*Jok.

) HotrDKi to wixtho^auj
> LEO^OO HOTX^TO AntfcOg.

.

) /VMEiX) TODEMEUT

DEf BJD/HjT

•i
•>
4

• i

i . . Q}Olfo UGlO/ TJUoA LO \5 Loono^i Vke <deVe/\danV^ and V-erdo^
mi)\JrZ5 We CoorV Vo enV-er an. ofoler' cWoniss'i

°3

Leo a© r'S VAcVbn

TO alVeror AmeAcl dudgOACA V W\aV L-coAor ixionGVWcl On April A

' 01A, a^cl VdeJ on April U| 9>6l9-

cr
1,

1

i

L :S.O\r\Of C<£x5r&r -Vs. VkW ikfS .CourV

KaS AoV -caWncd Cvn ©rdec

i
J A re£>pecV "Vo 5o^ci KAoVovy and a^> j>ucL( Leor\or m> odid Lke Vo

loroceed Vo appeal Vkis coarVs denial of W?s> S0cci55?<je, tnoVloo W

IpooVconvAoVi^
1

WWl On Mcy 30/ cVOia.

Leonor albo a^Ls.-VW Cour V Vo Vile iV-^ Q>rd er fa VW cW02- oV

;:Vve C-l-erC . 5o WaV. Le^no r
4-

.CCvA. Vave

record Vo appeal/ uilVk-

pCe^pecV-Voii^ SObmiVWcl VsgOO VW\5&S_-.cla^ ©V ^epWV

(VGiA-/

A-

"“•.■BW
f&rt
DOUGLAS COUNTY NEBRASKA

Dl)CiA ta>?6 V-eonor OOC^S^VCV

OCT 0 1 2012

PV&bX ^SOO

JOHN M. FRIEND
CLERK DISTRICT COURT

1—1 a Coin/ LtXV

4

^Sbo

)

C^rl'ri'iCcL'4-e. ■©‘A’ Scrv/’rc_e.

i!

!!

'TK-e- mcl-er5 ?q/Vlc^ Ke-r^zlotj Ccr'll Ad\-e-S ■VWcvA- a “W
U-e. a/\.d

ii
i;

nCorr-ec

4" Copy Qr|- ~H\io -tor-CQe^r^ N'lo'Vi0f» \o ^-VUAvtlo^ 1_J2^(\qC5

MoV'Oa 4d aider Or Arae/vd Tudcynend
i

p44om CM,

/'

oorub 5 exU cA Ao "VPa. S'WW'’3

MS- KoA\<z, Pj-e^boA, Wa\\ oA v^bAicc,

aad -FcurAa^ sA:

jjVialvx, fOcbrsista, (e>‘6>l‘8>3,- \Aa 0-5' Mxu\ bexaicapob-VacyL prepaid

|0n ■VK\b^^—dcy o4 Scp'Vc^b -e.r / <9—0l3~„
i

r
■;■

!
!•
I
i
!■!

A
M
1i

.ili

!

+!
;

ii
i!
I!
ii

n

II

h
J!
i!

ii
ii
ii

II

ii
!

11ii

li

il1!

H

U\$m Leonov OodLs^btoA
P-0. boX dS 00
l—i r\GoV a t LE- U&S^A- dS6D

'/

I

\

APPENDIX

!

IN THE DISTRICT COURT OF DOUGLAS COUNTY, NEBRASA
)
)
)
)
)
)
)
)
)

STATE OF NEBRASKA
Plaintiff,

Vs.
JUAN L. LEONOR,
Defendants.

Doc.

149

No. 834

C&io

o
m
70

N>

co

i
w

MATTER

came

before

the

O

^ 8 c

ORDER TO DISMISS

—
CO.

-r,
~D

>r~
Og
i

o •F3
o
•
cr
70

THIS

r*o

o

Court

on

October

2,

-J

2012,""* on

to
Motion
his
to
Withdraw
Motion
Defendant/Appellant’s
Amend or Alter Judgment filed April 11, 2012. The Defendant/Appellant appeared Pro
se. Being duly advised of the premises the Court finds the Motion should be granted and
this matter dismissed.
IT IS SO ORDERED
DATED this 2nd day of October 2012.
BY THE COURT:

MARLON A.TOLK
DISTRICT COURT JUDGE

J00112O04D01

2
-■xj

APPENDIX

J

i
-c. r

I

15., aoix

Au<^o LeoAor QOC^
P.O- ^)oX ^.600

U“r\c~o\f\,

nJb

^>^5H^-9v5^o

hAf- 3oWn. AV* c^o-cl
C-l s* k oi: - 44v.e.. £)ib Ab c- V Coor \

b^ftll _oi. IJjict'«.csu^. GLaatoo &©.o
WU, JVjE- So_%\K3

:

D

VAC_Ar«oo..J^ !

T......
.1—a^>A bO-ccA. JlL C-oo'Vac_V<x{ ^o.ar .o.4lice. Jb<-\!

jpWotoe Ao

iA^ULlTfir. ab&U A. a KVoAvoa Ae> lOiAWirAtJ AikAA" X.

|(r»l«l lo r«>5p-ecA Ala

poiAcoovocA^

VAjo’Vij&o ...<aoc\ VAoAt©A.......

Q.ft _ .

A® AlA--^r..
i

A5~\/ci

\f Icx^Ak

fcA (9^1 ^ «

~t VsA. ty>o-4-i'©n Ac* LO lAAci <auJ U»<0 'W UoAkA

..r

NAsa A\.Qlcv . Aa . AlA^c AAst. AIuA

Vky M0A1 o o -Ate-. cokAA*A focO

ar

i\io>

A

V-*r.<1-«jcl

J0YV

'5»Jb»yv{AA'rcA A® Ak«_

Ak*_

l 1.11 j3- ov 3l
dour A Pn

^<H?A^ofe><r <k5, Adi^A_Vv«. .pe,ft>ov^ X. A\oV<. f> po\&iss\

oa

Ak«_ pWo*vjC. .r-e^arci-i a<^ vw.-^

. 'AoAiQA Ao CJi'VVvArjit.vJA &aid AWaA Ake. fY\oAi»o CaJci^ .C^ccui V<A WsA
oiod cic-Cidi«_d- AAi5 A s-^Caf7 vJ..W».c.\a.Jl. AWlrX tS impel*SikW
......... o.e-CeuJije.. X.. uia:> (\&siicrr. v>o AA\-c.ol (4 AWc Ccj cAfS ckbjp&SiA' ©j\ •

4^ A.k\s -I-.of

.-dlr-AA
.

’-p i-C.«S e 7 Vfe.'O

tovft. I

cxocl 4 \A.tS A^AkaA

Ak-e tooaAA-or WolSvA .■e.en (AtoixXcA COlo i>\oU .p.V-ca:E><L <LXp 1«.Ia
L-OiCa

k
io .CAor^c

oA

Ao

tove.

tooAlA^jr^ tv\£_ j Ake, j«cJo^C 0.r AW$S oAk* Ge_^

yAAo, pi-tctJX-/ C~o.<\ . «^»u propel-e. Kve. cjlAU a cii&po^»i A®o- ®A

"\

^Vve. G,C»J*^£:.

A^i- YAo^i O/Y

Ojtv ..:

rsoH^ 4fe. p-CMf pl-tCiSa*

... Tfco^- Mgoifi r 4oor\p\.«.J?i» >JoU -O^

I^JC. op

./-"'x

/

lVs^ j

I

APPENDIX

K

r'

IN THE DISTRICT COURT OF DOUGLAS COUNTY,

#17
FILED
IN DISTRICT COURT
NEBRASK \DQUGLAS COUNTY NEBRASKA

MAY 0 8 2014

STATE OF NEBRASKA,

)

DOC. 149

No; 834

)

Plaintiff,

JOHN M. FRIEND
CLERK DISTRICT COURT

CR 10-9042117
)

VS.

MOTION TO VACATE! OR

JUAN L. LEONOR
)
)

Defendant.

MODIFY JUDGMENT

COMES NOW, Juan Luis Leonor, pro se, and hereby prays that
this Court exercises its discretion to grant this motion to
vacate under Neb.Rev.Stat. § 25-2001 and State V. Manning.
18 Neb. App. 545 (2010); State V. Haynes. 2014 Neb. App. LEXIS 29.
Leonor seeks to vacate and modify the Court's judgments
entered on April 5, 2012, denying his successive postcouiviction
motion and, on October 2, 2012, granting Leonor's motion to
withdraw.
POWER TO'VACATE
In State V. Manning, the Court of Appeals held that a
district court has "unlimited" discretion to modify or vacate
a judgment at any time.

Id. 18 Neb. App., at 549.:

in civil cases, a court of genetal jurisdiction has
inherent power to vacate or modify its own judgments
at any time during the term at which they are rendered.
Postconviction relief is not part of a criminal pro­
ceeding and is considered civil in nature. The
district court's ability to modify:a judgment is
virtually unlimited.
Id.; see also, Neb.Rev.Stat. § 25-2001 (2). (The power of the
district court under its equity jurisdiction to set aside a
1

20

I

judgment or an order as an equitable remedy is not limited
by this section.)
The defendant in Manning sought leave to amend his postconviction motion through his motion to vacate. Id. 18 Neb. App.
at 551. The Court of Appeals, however, found that the defendant
failed to cite "legal authority" that permitted 1th© court to
conclude that the defendant was entitled to an opportunity to
amend his postconviction.

Id. at 551.:

Postconviction relief statutes simply do not
accord the opportunity to amend a pleading after the
court determines that it is insufficient to necessitate
an evidentiary hearing. Manning has cited no legal
authority which requires us to conclude otherwise.
Id.
Even though the defendant failed to cite legal authority in support
of his contention, the appellate court, however, went ahead and assessed
the defendant's claim, thereby finding that the defendant did not prevail.
Id. :
Finally, in assessing whether the trial court abused its
discretion in denying the motion to vacate which sought to amend
the postconviction motion after a final order had been entered
dismissing the motion, it is not innappropiate to look at the
nature of the proposed amendment. Having done that, we fail
to understand, and Manning does not explain, how the allegedly
withheld information is in any way exculpatory, and would have
made any difference on the fundamental question of whether he
attempted to murder a mother and her daughter-as he admitted he
did via his plea. For several reasons, there was no abuse of
discretion in denying the motion to vacate.
Id.
Also, in State V. Haynes, 2014 NEb. App. LEXIS 29 *

2

♦ >

the Court applied

the same reasoning that it applied in Manning, that is, that the District
Court has 'broad inherent power to vacate or modify its own judgment during
the term at which it is rendered."

Id. at *7-8.

Haynes claimed that "he

did not receive notice of the judgment and was therefore unable to file a

timely appeal from the denial of his postconviction motion."

Id^_ The Court

of Appeals found that Haynes did not prevail because the Court did not have
affirmative evidence that the clerk did not send notice of judgment." Id^
at 12.
FACTS
On March 9, 2012, Leonor submitted a successive motion for postconviction
arguing inter alia, that his U.S . and Nebraska Constitutional rights to Due
Process and fair trial, with respect to the 2011' decision in State V. Smith,
282 Neb. 720 (2012), where the Nebraska Supreme Court.held that a step insconsider convicting Smith of intent
truction that did not permit the jury to
tionally killing Harris as a result of a sudden quarrel was an incorrrect
statement of the^law.

Id. at 734.

On his Claims II & III, Leonor argued that the decision in State V.
was entitled
Jones, 245 Neb. 821 (1994), did not allow him to argue: that he
to intentional manslaughter, (See Court Records, Succ. Post. Conv. , Claim
trial court committed error in not
and that the
distinction in manslaughter and murder in
instructing Leonor's jury on the
(Id. pp. 2 & 38-41). As part of Claim II Leonor also
the second degree.
standard of proof for sudden quarrel.
argued that he was not'informed of the

II, at Pp. 1 & 22-27),

(Id. at p. 1)

And with respect to Claim III, he also alleged that the
3

trial court failed to instruct the~jury that the state had the burden of
proving the lack of sudden quarrel to convict Loenor of second degree
murder ... and because the state failed to include in the amended Information
that intent was also an element of manslaughter upon a sudden quarrel.

See

(Id. at pp. 2).
As for Claim V, Leonor argued that ’’2nd Degree murder is facially
unconstitutional under Nebraska and U.S. Constitutions."

(Id. at p. 2).

And pertaining to Claim X, Leonor argued that the evidence was insu­
fficient beyond a reasonable doubt, that Leonor committed intentional second
degree murder.

(Id. at pp. 3 & 79-81)

The district court denied pos tconvict ion—relief "holding that- u[ e ]ach----of Defendant's claims were clearly "Knowable" to him at the time of his
direct appeal or two prior postconviction motions.'
[were] procedurelly barred."

IHus these claims

(Court Records, Order Denying Succ. Post.

Conv., at p. 2).
Following, Leonor filed a timely motion to alter or amend |hb?;Court's
judgment, on April 11, 2012)
at pp. 1-6)

(Court Records, Mot. To Alt. Or Amend. Judg.,

Due to a misunderstanding with the Clerk of the Court, Leonor

was under the impression that his Motion to Alter or Amend the Judgment
had not been timely filed; in consequence, Leonor filed a notice of appeal
in the Supreme Court.
Shortly after the notice of appeal was filed, the Supreme Court of
Nebraska informed Leonor that it did not have jurisdiction of his case,
because Leonor's motion to Alter or Amend the Judgment was still pending,
and the district court had not yet-ruled upon.
4

(Exhibit # !)•

Then,

on
Leonor sought to withdrawn his motion to alter or amend judgment,
September 25, 2012. (Court Records, Motion to Withdraw, Leonor's Mot. to
Alt. Or Amend Judg • * filed on October 1, 2012, pp. 1-2)
On or about November 2013, Leonor through a telephonically conversation
with the Clerk of the Court, Leonor
been already ruled upon,

learned that his motion to withdraw had

Leonor thought there must have been a mistake

because Leonor did not receive

notification of that ruling from the Clerk.

Clerk requesting to specify whether
So, Leonor was prompted to write the
his motion to
it was or not true that the Court had already ruled upon
submitted to the Clerk on November
withdraw. (Exhibit # 2, pp. 1-2; letter
12, 2013).
received the District Court's
Then, on December 17, 2013, Leonor
it states, that
Order pertaining to Leonor's Motion to withdraw, in which,
(See Exhibit # 3)
the Court had ruled upon his motion on October 2, 2012.
Court held that State V.
On November 16, 2012, the Nebraska Supreme
"new rule" of law retroactive only in cases on
Smith, 282 Neb. 720 •» was a
, 479 U.S. 314 (1987). See
direct appeal, citing Griffith V. Kentucky
gi-at-P V. Smith. 284 Neb. 636. 646 (2012).
Then, on June 17, 2013, the U.S. Supreme COurt
States

in Alleyne V. United

133 S.Ct. 2151 (2013), held that:
fact is
The essential Sixth Amendment inquiry is whether a
When a finding of fact alters the
is an element of the crime,
so as to aggravated it, the fact
legally prescribed punishment
offense and must
necessarily forms a constituent part of a new
be submitted to the jury.

Id. at 2162.:
5

Leonor's convictions for second degree murder and the weapon chafges
with respect to the murders, are void because, (1) Leonor stands convicted
upon a charge that did not exist in Nebraska, (2) Upop a charge that he
was not informed of neither tried for, and (3) that illegal charged
the burden of proof on Leonor.

Leonor'd -UoS. Constitutional rights to due

process and fair trial, Amendments 5th, 6th and 14th, were violated.
Leonor seeks an evidentiary hearing on each claim that he seeks amendment
on, or that he seeks to amend, because they are not procedurally barred;
they state facts amounting to a violation of the U.S. Constitution; and
they are facts that if proven, would entitled Leonor to relief.

ARGUMENTS
II.
DUE PROCESS ENTITLED LEONOR TO REFILED AN APPEAL
The relief that Leonor seeks here is, that the Cciurt vacate its
judgment entered on October 2, 2012, granting his Motion to Withdraw the
Motion to alter or amend judgment, filed on-Oetober 1, 2012.

(See District

Court Records.)
Leonor was never notified that this Court had ruled on his motion to
withdraw, which deprived him from timely file a Notice of Appeal following
the Gdurt’s ruling, a timely notice of appeal pertaining to this Court s
denial of his postconviction motion.
The fact that Leonor was not able to timely appeal, had been due to
41

the fault of the District Court Clerk, who failed to forward notification
of this Cdurt's ruling, to Leonor.

The Supreme Court of Nebraska said

that the-best way to remedy this denial of due process, is through a motion
to vacate. See> State V. Haynes, 2014 Neb. App. LEXIS 29 *.
In support of Leonor's claim that he had never received notification
of this Cdurt's ruling, he-'provides the Cdurt with a copy of the Prison
Confidential Correspondence records from the months of October and November,
2012, sHowing the only legal correspondence that Leonor recieved during
this periods. (Exhibit # 5, five sheets with dates: 10-3-12, 10-19-12,
10-30-12; 11-8-12 & 11-24-12; and the Inmate Request that Leonor sent to
prison officials requesting such a record.)

None of the prison records

show that Leonor had received notification of the Court's ruling entered
on October 2, 2012, and Leonor asserts under oath that he never received
such a notification. (Exhibit #6)
It was not until Leonor had teleohonically contacted the Clerk of
the Court, on or about November 2013, that he first acquired that this
Court had already ruled on his motion.

Then, on November 12, 2013, Leonor

sent a letter to the Clerk to verify in writing whether it had been true
that the Court had already ruled upon his motion.

(Exhibit # 2, pp. 1-2),

On December, 17, 2013, Leonor received the District Court's Order
ruling on his motion, from the Clerk of the District Court, which was
made possible after Leonor had requested information about it.
# 3)

(Exhibit

The Court has discretion to grant this motion under § 25-2001(2)

42

and State V. Haynes, and State V. Manning,

A violation of due process

under the U.S. Constitution, Amendments 5th and 14th, would occur is Leonor
not given an opportunity to refile his appeal.
Therefore, Leonor prays that the Cdurt grant this motion to vacate,
vacate its judgment entered on October 2, 2012, and reenter it with notifying
Leonor of its ruling; so that Leonor can adequately file his notice of
appeal.
CONCLUSION
Leonor is entitled to obtain an amendment of his postconviction
motion issues, II, III, V, & TEN, as he has offered them in amendment within
this motion to vacate; entitle to appointment of counsel, who will litigate
effectively and persuade this Court that these.'.amended claims entitle..him
to postconviction relief; entitle to an evidentiary hearing on these claims;
entitled to postconviction relief and to.proceed in forma pauperis; if
Leonor is required to resubnit his i.M'iforma pauperis motion, he;asks.ithis
Court to direct him to do so. Thus, this Court has the dicretion to grant
motion to vacate on this argument; and Leonor asks the Court to exercise
its discretion and grant this motion because justice so requires it.
Eurther, Leonor is entitled to refile his appeal because due to the
ClerkIs fault, Leonor was not able to adequately file his notice of appeal
within the 30 days proscribed by law.

This Court has discretion to vacate

its October 2, 2012-Order and reenter it so.'that Leonor can timely appeal
within the 30 days following this Court's new order.

Leonor asks the

Court to exercise its discretion because justice so requires it.
43

CERTIFICATE OF SERVICE
The undersigned hereby certifies that a true and correct copy of
the foregoing was served upon the state's attorney, Mr. Donald Kleine,
Hall of Justice, 17th and Famam St., Omaha, NE 68183, through U.S.
Mail Service, postage prepaid, on this

day of

2014;

* Motion to Vacate.
* Exhibits in support 1 through 6.

v
Juan L.

lonl

P.0. Bo 2500
Lincoln, NE 68542-2500

45

>

EPARTMENT OF CORRECTION A1 SERVICES

NEBRAS

IN®TE INTERVIEW REQUEST

TO:

X Ui+T«.

FROM:

au av\

V.

'✓

ul£

L 2-0

FACILITY

NAME/NUMBER

,‘JNIT STAFF-

WORK LOCATION:

T

MFQQAfiF- X CQpjltSl like 4~o |Caq.oJ V X Caa yTd--sUleT

H,

i^Ka.-V-^fv X'Vk

!' tvu.-U-,.r5 T ^

,

fi-T

\ iy\

QM|

V-Afti\ v—0(Aok>M .-P/vi Ne'/enbJ’f.

i^tiS

q j^t)C

1 ty.—

T,

^

f l<4Li±t£*

f t«r~ -U^. co^-lr. X
4» Cc^rl (K0of -V*
rour-t- -U r?W_
Uf^j QA^ Uyt- t/v^ 1
rU r^-V rtx:^ 4W»t.

T

J

n

\l OIaA K *
- “<?

“Vlv

3

-I'S rL/ tXS'o./->
four

_UQ—QC~VlffV? FT. &Q t^L■-^"

c^bJ <C>

C^.nfo Wl t#>

«3

T

«

'«
/

7

.: ..

JUORIGINAL - DCS Employee
T" YELLOW - Inmate
<$ Both copies need to be submitted fongsponse.

tX

i, •

4—4

• I
\

mun^ rtlispL.- ,nuhnu^c-d

REPLY:

Jt"\

EXHIBIT

5
v

w/.v

Date

OCS-A-adm-013 (rev. 2/97)

^ZZZZ
/

7/

Signature'

•

* »r ^.-..-i

V:

ArTT /acJU/7 J \s ^ f Ue <JC- o

- *

J

■Yvyai

Q» Qc-Uipa/ ^ MoV^tQ^r

0
fv\ I -T* CoftTfoi OrvitL——r ^•^rg.^.cg—-Vg

XtMX f uiiS

%%

3- s >-;y
I
LOCATION

DATE:

NEBRASKA DEPARTMENT OF CORRECTIONAL SERVICES

RECEIPT LOG FOR CONFIDENTIAL MAIL
• /

/

To

1

Date:

Housing Unit:

Picked up by:
Number

Location

Inmate Signature
& Date

From

Number

Witness

Time & Date DeliveredComment

$ /z

kri
j

!

F

ORIGINAL: Mail Room

NEBRASKA DEPARTMENT OF CORRECTIONAL SERVICES

RECEIPT LOG FOR CONFIDENTIAL MAIL
Picked up by:
To

Housing Unit:.
Number

Location

From

Inmate Signature
& Date

Date:_i&
Number

Witness

Time & Date DeliveredComment

rn'r

hi

10/3/12.

ORIGINAL: Mail Room

NEBRASKA DEPARTMENT OF CORRECTIONAL SERVICES

RECEIPT LOG FOR CONFIDENTIAL MAIL
•T

a

Housing Unit:

Picked up by:.
To

Number

106.

5- Lv^rViT
D' Ijeoror

IV n
A~H

Inmate Signature
& Date

From

Location

£ow<^r

Oil

jL

Date:
Number

Witness

u

°/Q I to o

5^ -7J-

ORIGINAL: Mail Room

Time & Date DeliveredComment

J

! f °£,

NEBRASKA DEPARTMENT OF CORRECTIONAL SERVICES

RECEIPT LOG FOR CONFIDENTIAL MAIL
Housing Unit:

Picked up by:
Number

To

Location

Inmate Signature
& Date

From

Date:\<>j)^

C Lx.

'0

Number

Witness

Time & Date DeliveredComment
/o/iV/jz.

/yyo

i

I

i
i
I;
■

H

it

ii
'1

‘I

!lv‘

ii

ORIGINAL: Mail Room
\/I- I

I

* t.

i'

NEBRASKA DEPARTMENT OF CORRECTIONAL SERVICES

RECEIPT LOG FOR CONFIDENTIAL MAIL
Picked up by:
To

Housing Unit:
Number

Location

ACo^

l

Inmate Signature
& Date

From

Date:
Number

Witness

Time & Date Delivered• Comment

•7

r'

v

ORIGINAL: Mail Room

/U^' (£, 30

K-7.H- IT-

